Appendix A

United States Court of Appeals for the Second Circuit
Thurgood Marshall U. S. Courthouse
40 Foley Square
New York, NY 10007
ROBERT A.KATZMANN, CLERK IN COURT
CATHERINE O’HAGAN WOLF, CHIEF JUDGE

Date: July 30, 2019
DC Docket # 15-cv-4260 Docket # 18-2172cv
DC Court: SDNY (WHITE PLAINS)
DC Judge: Karas
Short Title:: Shands v. Lakeland Central School Dist.

NOTICE OF DOCUMENT RETURNED
The enclosed motion for submission of petition for rehearing en bnc, is rejected for
filing because the:
( ) moving party is not counsel of record.
( ) response may not be accepted because motion has been decided.
( ) relief requested must be sought in district court in the first instance.
( x ) appeal is closed, and this Court no longer has jurisdiction.
Inquires regarding this case may be directed to the undersigned
Appendix A

(212) 857-8534.

MANADATE
18-2172
Shands v. Lakeland Central School District et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007,
IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING
A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING
TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
York, on the 2nd day of July, two thousand nineteen.

Present:
DENNIS JACOBS,
DEBRA ANN LIVINGSTON,
SUSAN L. CARNEY,
Circuit Judges.

ANNETTE SHANDS
Plaintiff-Appellant,

LAKELAND CENTRAL SCHOOL DISTRICT,
DR. TAMMY COSGROVE, ASSISTANT
SUPERINTENDENT OF HUMAN RESOURCES,
Defendants-Appellees, *

For Plaintiff-Appellant:
ANNETTE SHANDS, pro se,
Cortlandt Manor, NY.

For Defendantss-Appellees*
JAMES A. RANDAZZZZO,
(Drew W. Sumner, on the brief),

Portale Randazzo L.L.P,
White Plains, NY.

* The Clerk of Court is respectfully requested to amend the caption as set forth above.

MANDATE ISSUED ON 07/29/2019

Appeal from a judgment of the United States District Court for the Southern
District of New York (Karas, J.).

UPON DUE CONSIDERATION, IT IS HEREBBY ORDERED, ADJUDGED, AND
DECREED that the order of the district court is AFFIRMED.
Annette Shands, pro se, appeals from the July 5, 2018, decision and order of
the United States District Court for the Southern District of New York (Karas, J.)
granting summary judgment to the Lakeland Central School District and its Assistant
Superintendent of Human Resources, Dr. Tammy Cosgrove (collectively, the “Defendants”),
on her discrimination claims brought under the Age Discrimination in Employment Act
(:ADEA”), 29 U.S.C. § 621; the Fourteenth Amendment Equal Protection Clause: and the
New York State Human Rights Law (“NYSHRL”), N.Y. Exec. Law § 296. We review de novo
the district court’s grant of summary judgment, construing the evidence in the light most
favorable to the nonmoving party and drawing all reasonable inferences in its favor, See
e.g. Darnell v. Pineiro, 849 F.3d 17,22 (2d Cir. 2017), (Summary judgment is appropriate ‘if
the movant shows that there is no genuine dispute as to any material fact and the movant

■*.

is entitled to judgment as a matter of law.’” Sousa C. Marquez, 702 F.3d 124,127 (2d Cir.
2012) (quoting Fed. R. Civ. R 56(a)). We construe Shands’s pro se submissions liberally,
and interpret them “to raise the strongest arguments that they suggest.” Triestman v.
Fed. Bureau of Prisons, 470 F.3d 471, 474 (2d Cir. 2006) (internal quotation marks and
emphasis omitted). We assume the parties’ familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.

Shands, an African-American woman over the age of sixty-five, filed the present
action on May 26, 2015, following Defendants’ failure to hire her for the position of
Assistant Principal at Lakeland Copper Beech Middle School, Shands applied for the
Assistant Principal position in May 2014, and was one of over 300 applicants. Pointing to
her prior experience as a pastor and schoolteacher, Shands contends that the Defendants
discriminated against her on the basis of her age, race, and gender in declining to
recommend and hire her for the position.
All of Shands’s discrimination claims proceed under the burden-shifting framework
articulated in McDonnell Douglas Corp. v.. Green, 411 U.S. 792, 802 (1973), see also Bucalo
v. Shelter Island Union Free Sch. Dist., 691 F. 3d 119,129 (2d Cir. 2012) (applying the
framework to a discrimination claim brought under the ADEA); Spiegel v. Schulmann,
604 F 3d. 72, 80 (2d Cir. 2010) (NYSHRL);

Feingold v. New York, 366 F .3d 138,

159 (2d Cir. 2004) (equal protection claim under § 1983). Pursuant to this framework,
if the plaintiff establishes a prima facie case of discrimination, the burden shifts to
the employer to articulate some legitimate, nondiscriminatory reason for the adverse

employment action, McDonnell Douglas, 411 U.S. at 802. If the employer successfully
makes such a showing, the burden shifts back to the plaintiff to show that the employer’s
nondiscriminatory reasons are a pretext for discrimination. Id. At 804-0. With regard to
her ADEA claim, Shands has the added burden of establishing the age was the “but-for”
cause of the discrimination. See Vega v/ Hempstead Union Free Sch. Dist., 801 F .3d 72, 86
(2d Cir. 2015).
After reviewing the record, we condlude that the district court properly granted
summary judgment to Defendants on all of Shands’s discrimination claims. While Shands
may have established a prima facie case of discrimination, Defendants sufficiently
established legitimate, non-discriminatory reasons for the decision to hire their preferred
candidate, Francesco Ruolo.
Specifically, they produced evidence of his years of experience as an assistant
principal and knowledge of the Common Core system, a qualification for which they
advertised. Shands, whose most recent employment by a school district was as a
substitute teacher in 2002, has not presented evidence that the Defendants’ decision not
to hire her was due to discriminatory animus rather than their asserted justifications.
Although Shands points to various difficulties in submitting her application, she offers
no evidence that Defendants intentionally created obstacles to prevent her from filing
a successful application, let alone that the did so because of her age, race, or gender.
And while Shands argues that her experiences in public education and teaching more
broadly are more extensive and valuable that Ruolo’s, we “do not sit as a super-personnel
department that reexamines an entity’s business decisions.” Delacey v. Bank ofAm. Corp.,
766 F 3d 163,169 (2d Cir. 2014) (internal quotation marks omitted), We certainly cannot

say that Shands’s credentials are “so superior . . . that no reasonable person, in the exercise
of impartial judgment, could have chosen the candidate selected over [her]Byrnie
v. Town of Cromwell, Bd. OfEduc., 243 F.3d 93,103 (2d Cir. 2001). In sum, Shands’s
subjective disagreement with Defendants’ assessment of her qualifications cannot sustain
a claim of discrimination under the ADEA, Title VII, NYHRL,, or § 1983.
We have considered all Shands’s remaining arguments and find them to be without
merit. For the foregoing reasons, the judgment of the discrict court is AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
United States Court of Appeals, Second Circuit
s/ Catherine O’Hagan Wolfe

Appendix B

MANADATE
18-2172
Shands u. Lakeland Central School District et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007,
IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING
A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING
TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
Appendix B

York, on the 2nd day of July, two thousand nineteen.

Present:
DENNIS JACOBS,
DEBRA ANN LIVINGSTON,
SUSAN L. CARNEY,
Circuit Judges

ANNETTE SHANDS
Plaintiff-Appellant,

LAKELAND CENTRAL SCHOOL DISTRICT,
DR. TAMMY COSGROVE, ASSISTANT
SUPERINTENDENT OF HUMAN RESOURCES,
Defendants-Appellees, *

* The Clerk of Court is respectfully requested to amend the caption as set forth above.

MANDATE ISSUED ON 07/29/2019
For Plaintiff-Appellant:
ANNETTE SHANDS, pro se,
Cortlandt Manor, NY.

For Defendants-Appellees:
JAMES A. RANDAZZO,
(Drew W. Summer, (on the brief),
Portale Randazzo LLP, White Plains, NY

Appeal from a judgment of the United States District Court for the Southern
District of New York (Karas, J.).

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of the district court is AFFIRMED.

Annette Shands, pro se. appeals from the July 5, 2018 decision and order of
the United States District Court for the Southern District of New York (Karas, J)
granting summary judgment to the Lakeland Central School District and its Assistant
Superintendent of Human Resources, Dr. Tammy Cosgrove (collectively, the “Defendants”),
on her discrimination claims brought under the Age Discrimination in Employment Act
(“ADEA”), 29 U.S.C.§ 621; the Fourteenth Amendment Equal Protection Clause, and the
New York State Human Rights Law (“NYSHRL”), N.Y. Exec. Law § 296. We review de novo
the district court’s grant of summary judgment, construing the evidence in the light most
favorable to the nonmoving party and drawing all reasonable inferences in its favor. See,
e.g. Darnell v. Pineiro, 849 F.3d 17, 22 (2d Cir. 2017). “Summary judgment is appropriate
“if the movant shows that there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.Sousa v. Marquez, 702 F. 3d 124,127

(2d Cir 2012) (quoting Fed. R. Civ. P. 56(a)). We construe Shands’s pro se submissions
liberally, arid interpret them “to raise the strongest arguments that they suggest.”
Triestman v. Fed. Bureau of Prisons, 470 F. 3d 471, 474 (2d Cir. S006) (internal quotation
marks and emphasis omitted). WE assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the issues on appeal.

Shands, an African-American woman over the age of sixty-five, filed the present
action on May 26, 2015, following Defendants’ failure to hire her for the position of
Assistant Principal at Lakeland Copper Beech Middle School, Shands applied for the
Assistant Principal position in May 2014, and was one of over 300 applicants. Pointing to
her prior experience as a pastor and schoolteacher, Shands contends that the Defendants
discriminated against her on the basis of her age, race, and gender in declining to
recommend and hire her for the position.
All of Shands’s discrimination claims proceed under the burden-shifting framework
articulated in McDonnell Douglas Corp. v.. Green, 411 U.S. 792, 802 (1973); see also Bucalo
v. Shelter Island Union Free Sch. Dist., 691 F.3d 119,129 (2d Cir. 2012) (applying the
framework to a discrimination claim brought under the ADEA); Spiegel v. Schulmann,
604 F.3d 72, 80 (2d Cir. 2010) (NYSHRL); Feingold v. New York, 366 F.3d 138,159 (2d Cir.
2004) (equal protection claim under § 1983). Pursuant to this framework, if the plaintiff
establishes a prima facie case of discrimination, the burden shifts to the employer to
articulate some legitimate, nondiscriminatory reason for the adverse employment action.

McDonnell Douglas, 411 U.S.at 802. If the employer successfully makes such a showing,
the burden shifts back to the plaintiff to show that the employer’s nondiscriminatory
reasons are a pretext for discrimination. Id. At 804-05. With regard to her ADEA claim,
Shands has the added burden of establishing that age was the “but-for” case of the
discrimination. See Vega v. Hempstead Union Free Sch. Dist., 801 F.3d 72, 86 (2d Cir.
2015).
After reviewing the record, we conclude that the district court properly granted
summary judgment to Defendants on all of Shands’s discrimination claims. While
Shands may have established a prima facie case of discrimination, Defendants sufficiently
established legitimate, non-discriminatory reasons for the decision to hire their
preferred candidate, Francesco Ruolo, Specifically, they produced evidence of his years
of experience as an assistant principal and knowledge of the Common Core system, a
qualification for which they had advertised. Shands whose most recent employment by
a school district was as a substitute teacher in 2002, has not presented evidence that the
Defendants; decision not to hire her was due to discriminatory animus rather than their
asserted justifications. Although Shcnds points to various difficulties she encountered in
submitting her application, she offers no evidence that Defendants intentionally created
obstacles to prevent her from filing a successful application, let alone that they did so
because of her age, race, or gender. And while Shands argues that her experiences in
public education and teaching more broadly are more extensive and valuable than Ruolo’s,
we “do not sit as a super-personnel department that reexamines an entity’s business
decisions.” Delaney v. Bank ofAm. Corp., 766 F. 3d 163,169 (2d Cir. 2014) (internal
quotation marks omitted). We certainly cannot say that Shands’s credentials are “so

superior . . . that no reasonable person, in the exercise of impartial judgment, could have
chosen the candidate selected over [her].” Byrnie v. Town of Cromwell, Bd. ofEduc., 243
F.3d 93, 103 (2d Cir. 2001). In sum, Shands;s subjective disagreement with Defendants’
assessment of her qualifications cannot sustain a claim of discrimination under the ADEA,
Title VII, NYHRI., or § 1983.
We have considered all of Shands’s’ remaining arguments and find them to
be without merit. For the foregoing reasons, the judgment of the district court is
AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
United States Court of Appeals, Second Circuit
s/ Catherine O’Hagan Wolfe

Appendix C

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
York, on the 22nd day of July, two thousand and nineteen,

Before:

Dennis Jacobs,
Debra Ann Livingston,
Susan L. Carney,
Circuit Judges

Annette Shands,
Plaintiff-Appellant
v.
Lakeland Central School District, Dr. Tammy Cosgrove,
Assistant Superintendent of Human Resources,
Defendants-Appellees.
Appendix C

Annette Shands having filed a petition for panel rehearing and the panel that
determined the appeal having considered the request,

IT IS HEREBY ORDERED that the petition is DENIED.

For the Court,
Catherine O’Hagan Wolfe,
Clerk of Court
UNITED STATES
COURT OF APPEALS
SECOND CIRCUIT
s/ Catherine O’Hagan Wolfe

Appendix D

18-2172
Shands v. Lakeland Central School District, et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007,
IS PERMITTED AND IS COVERED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1 WHEN CITING
A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING
TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
York, on the 2nd day of July, two thousand nineteen.
Appendix D

Present:
DENNIS JACOBS,
DEBRA ANN LIVINGSTON,
SUSAN L. CARNEY
. Circuit Judges

ANNETTE SHANDS,
Plaintiff-Appellant,
v.
LAKELAND CENTRAL SCHOOL DISTRICT,
DR. TAMMY COSGROVE, ASSISTANT
SUPERINTENDENT OF HUMAN RESOURCES,
Defendants-Appellees. *

For Plaintiff-Appellant:
ANNETTE SHANDS,prose,
Cortlandt Manor, NY

For Defendants-Appellees:
JAMES A. RANDAZZO,
(Drew W. Sumner, on the brief),

Portale Randazzo LLP, White Plains, NY.

Appeal from a judgment of the United States District Court for the Southern
District of New York (Karas, J.).

UPON DUE CONSIDERATION, IT IS HEREBBY ORDERED, ADJUDGED,
AND DECREED that the order of the district court is AFFIRMED.

Annette Shands, pro se, appeals from the July 5, 2018, decision and order of
the United States District Court for the Southern District of New York (Karas, J.)
granting summary judgment to the Lakeland Central School District and its Assistant
Superintendent of Human Resources, Dr. Tammy Cosgrove (collectively, the “Defendants”),
on her discrimination claims brought under the Age Discrimination in Employment Act
(:ADEA”), 29 U.S.C. § 621; the Fourteenth Amendment Equal Protection Clause: and the
New York State Human Rights Law (“NYSHRL”), N.Y. Exec. Law § 296. We review de novo
the district court’s grant of summary judgment, construing the evidence in the light most
favorable to the nonmoving party and drawing all reasonable inferences in its favor, See
e.g. Darnell v. Pineiro, 849 F.3d 17,22 (2d Cir. 2017), (Summary judgment is appropriate ‘if
the movant shows that there is no genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.’” Sousa C. Marquez, 702 F.3d 124,127 (2d Cir.
2012) (quoting Fed. R. Civ. P. 56(a)). We construe Shands’s pro se submissions liberally,
and interpret them “to raise the strongest arguments that they suggest.” Triestman v.
Fed. Bureau of Prisons, 470 F.3d 471,474 (2d Cir. 2006) (internal quotation marks and

emphasis omitted). We assume the parties’ familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.

Shands, an African-American woman over the age of sixty-five, filed the present
action on May 26, 2015, following Defendants’ failure to hire her for the position of
Assistant Principal at Lakeland Copper Beech Middle School, Shands applied for the
Assistant Principal position in May 2014, and was one of over 300 applicants. Pointing to
her prior experience as a pastor and schoolteacher, Shands contends that the Defendants
discriminated against her on the basis of her age, race, and gender in declining to
recommend and hire her for the position.
All of Shands’s discrimination claims proceed under the burden-shifting framework
articulated in McDonnell Douglas Corp. v.. Green, 411 U.S. 792, 802 (1973), see also Bucalo
v. Shelter Island Union Free Sch. Dist., 691 F. 3d 119,129 (2d Cir. 2012) (applying the
framework to a discrimination claim brought under the ADEA); Spiegel v. Schulmann,
604 F 3d. 72, 80 (2d Cir. 2010) (NYSHRL);

Feingold v. New York, 366 F .3d 138,

159 (2d Cir. 2004) (equal protection claim under § 1983). Pursuant to this framework,
if the plaintiff establishes a prima facie case of discrimination, the burden shifts to
the employer to articulate some legitimate, nondiscriminatory reason for the adverse
employment action, McDonnell Douglas, 411 U.S. at 802. If the employer successfully
makes such a showing, the burden shifts back to the plaintiff to show that the employer’s
nondiscriminatory reasons are a pretext for discrimination. Id. At 804-05. With regard to
her ADEA claim, Shands has the added burden of establishing the age was the “but-for”

cause of the discrimination. See Vega v! Hempstead Union Free Sch. Dist., 801 F .3d 72, 86
(2d Cir. 2015).
After reviewing the record, we condlude that the district court properly granted
summary judgment to Defendants on all of Shands’s discrimination claims. While Shands
may have established a prima facie case of discrimination, Defendants sufficiently
established legitimate, non-discriminatory reasons for the decision to hire their preferred
candidate, Francesco Ruolo.
Specifically, they produced evidence of his years of experience as an assistant
principal and knowledge of the Common Core system, a qualification for which they
advertised. Shands, whose most recent employment by a school district was as a
substitute teacher in 2002, has not presented evidence that the Defendants’ decision not
to hire her was due to discriminatory animus rather than their asserted justifications.
Although Shands points to various difficulties in submitting her application, she offers
no evidence that Defendants intentionally created obstacles to prevent her from filing
a successful application, let alone that the did so because of her age, race, or gender.
And while Shands argues that her experiences in public education and teaching more
broadly are more extensive and valuable that Ruolo’s, we “do not sit as a super-personnel
department that reexamines an entity’s business decisions.” Delacey v. Bank ofAm. Corp.,
766 F 3d 163,169 (2d Cir. 2014) (internal quotation marks omitted), We certainly cannot
say that Shands’s credentials are “so superior ... that no reasonable person, in the exercise
of impartial judgment, could have chosen the candidate selected over [her].” Byrnie
v. Town of Cromwell, Bd. Of Educ., 243 F.3d 93,103 (2d Cir. 2001). In sum, Shands’s
subjective disagreement with Defendants’ assessment of her qualifications cannot sustain

a claim of discrimination under the ADEA, Title VII, NYHRL„ or § 1983.
We have considered all Shands’s remaining arguments and find them to be without
merit. For the foregoing reasons, the judgment of the district court is AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
United States Court of Appeals, Second Circuit
“s/” Catherine O’Hagan Wolfe

*The Clerk of Court is respectfully requested to amend the caption as set forth above.

Appendix E

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

ANNETTE SHANDS,
Plaintiff,
v.
LAKELAND CENTRAL SCHOOL
DISTRICT and DR. TAMMY COSGROVE,
Assistant Superintendent of Human Resources,
Defendants.

Appearances:
Annette Shands
Cortlandt Manor, NY
Pro se Plaintiff

Appendix E

James A. Randazzo, Esq.
Portale Randazzo LLP
White Plains, NY.
Counsel for Defendants

Drew W. Summer, Esq.
Morris, Duffy Alonso & Faley
New York, NY
Counsel for Defendants

KENNETH M. KARAS, District Judge:
Pro se Plaintiff Annette Shands (“Plaintiff”} brought this Action against the
Lakeland Central School District (the “District”), and Assistant Superintendent of
Human Resources, Tammy Cosgrove (“Cosgrove”) collectively, “Defendants”), alleging that
Defendants failed to offer her an Assistant Principal position because of her age, race, and
gender, in violation of the Age Discrimination in Employment Act (“ADEA”), 29 U.S.C. §
621, the New York State Human Rights Law (NYSHRL”), N.Y. Exec. Law § 296, and the
Fourteenth Amendment Equal Protection Clause, (Third Am. Compl. (Dkt. No. 54).). Before
the Court is Defendants’ Motion for Summary Judgment. (Not. of Mot. (Dkt. No. 83).) For
the following reasons, the Motion is granted.
1. Background
A. Factual Background
The following facts are taken from Defendants’ statement pursuant to Local Civil

Rule 56.1 (Defs.’ Rule 56.1 Statement (“Defs.’ 56.1”) (Dkt. No. 86)). Plaintiff’s response
to that statement, (Pl.’s Resp. to Summ. J. Mot. (“Pl.’s 56.1”) (Dkt. No. 90)), Plaintiff’s
declaration, which duplicates the disputed facts identified in Plaintiff’s 56.1 statement,
(Decl. of Opp’n to Summ. J. Mot. (“Pl.’s Decl.”) (Dkt. No. 91)), and the admissible evidence
submitted by the Parties, and are recounted in the light most favorable to Plaintiff,
the non-movant.1 The facts as described below are not in dispute, except to the extent
indicated.

^ocal Civil Rule 56.1 (a) requires the moving party to submit a “short and concise statement, in
numbered paragraphs, of the material facts as to which the moving party contends there is no genuine issue
to be tried.” The nonmoving party, in turn, must submit “a correspondingly numbered paragraph responding
to each numbered paragraph in the statement of the moving party, and if necessary, additional paragraphs
containing a separate, short [,] and concise statement of additional material facts as to which it is contended
that there exists a genuine issue to be tried.” Local Civ. R. 56.1(b). “A pro se litigant is not excused from this
rule,” “Brandever v. Port Imperial Ferry Corp., No, 13-CV-2813, 2014 WL 1053774, at*3 (S.D.N.Y. Mar. 13,
2014) (italics omitted), and “([i]f the opposing party ... fails to controvert a fact set forth in the movant’s Rule
56.1 statement that fact will be deemed admitted pursuant to the local rule,” Baity v. Kralik, 51 F. Supp. 3d
414, 418 (S.D.N.Y. 2014) (internal quotation marks omitted); see also T.Y. v. N.Y.C. Dep’t Educ., 584 F. 3d 412,
418 (2d Cir. 2009) (same).Here, Defendants filed and served their 56.1 statement, (Defs.’ 56.1), in addition to
a statement notifying Plaintiff of the potential consequences of not responding to the Motion, as required by
Local Rule 56.2 (Dkt. No. 87), and Plaintiff filed a response, (Pl.’s 56.1).
However, Plaintiff’s response for the most part does not comply with Rule 56.1. Of the 265
separately numbered paragraphs in Defendants’ 56.1 statement, (Defs.’ 56.1), Plaintiff conceded that 80
of them were “undisputed,” (PI. 56.1), Of the remaining 185 paragraphs, in addition to identifying actual
disputes of fact, Plaintiff (1) abstained from answering four of them, (Pl.’s 56.1 11 247-49, 252). (2) “disputed”
many of them with only semantic objections, (id..SISI 1-4,11, 33, 35, 65, 67-68, 73, 86-87, 92,100, 104,126,
135,145, 171-77. 205-213, 220-28, 236-44. 258). And (3) “disputed” many of them by asserting irrelevant
facts that do not contradict Defendants’ factual assertions, (id.. It'll 5-6, 9-10,13,16, 24, 26, 37, 49, 53-55,
62, 64, 70-72, 75-76, 84, 93, 97-98,105-107, 109,112,114,120, 125,131-133,137-139,142-143,148,153,
157,162-163,166,168,170,185-186,188-190,192,196-201, 203-204, 216-218, 231, 233-234, 251, 264-65).
These purported disputes, which do not actually challenge the actual disputes and thus the Court will not
consider them as creating disputes of fact. See Baity, 51 F. Supp. 3d at 418 (“Many of Plaintiff’s purported
denials—and a number of his admissions—improperly interject arguments and/or immaterial facts in
response to facts asserted by Defendants, often speaking past Defendants’ asserted facts without specifically
controverting those same facts.”); id. (“[A] number of Plaintiffs’ purported denials quibble with Defendants’
Educ. OfWappingers Cent. Sch. Dist., No. 07-CV-8828, 2013 WL 3929630 at *1 n.2 (S.D.N.Y. July 30, 2013)
(explaining that the plaintiff’s 56.1 statement violated the rule because it “improperly interjects arguments
and or immaterial facts in response to facts asserted by Defendant, without specifically controverting those
facts,” and “[i]n other instances,.. .neither admits or denies a particular fact, but instead responds with
equivocal statements”); Goldstick v. The Hartford, Inc., No. 00-CV-8577, 2002 WL 1906029, at * 1 (S.D.N.Y.
Aug. 19, 2002) (noting argumentative and often lengthy narrative in almost every case[,} the object of which
is to ‘spin’ the impact of the admissions [the] plaintiff has been compelled to make”). Additionally, some of
Plaintiff’s statements are inconsistent. (Compare PI. 56.1 H 2, 185 (claiming that race is not relevant to this
lawsuit) with H 139,171,179 alleging race discrimination).)

Moreover, in some of the instances where Plaintiff does identify Plaintiff is an
African American woman over the age of sixty-five. (Defs.’ 56.111 1-2; Pl.’s Decl. 1 1.)
Defendant Cosgrove is the Assistant Superintendent of the District. (Defs.’ 56.1 1 3.) Her
duties include, among other things, overseeing recruitment and hiring and processing
grievances. (Id. (|[5.) Cosgrove had never met or spoken to Plaintiff until after Plaintiff filed
this Action (Id. 117-8,18.)
1.Plaintiff’s Interactions with the District
At some point in 2004, Plaintiff presented to the District’s Board of Education to
search for employment as an administrator. (Id. 1 254.) A receptionist directed Plaintiff
to the Human Resources office. (Id. 1 255.) While there, Plaintiff saw a job posting for a
position of Elementary School Principal on a bulletin board. (Id. 1 257.) Plaintiff spoke
with District employees concerning the posting and indicated that she was interested
the position. (Id. 11 259-60.) An employee responded that the District received too many
applicants for the position and that the position would, or should have, been taken down.

actual disputes of fact, she fails to cite the supporting portions of the record; this also could permit the Court
to deem the challenged facts undisputed. See Holtz v. Rockefeller & Co., 258 F. 3d 62, 73 (2d Cir. S001)
(explaining that the court is not required to search the record for genuine issues of material fact Supp. 3d at
418 (collecting cases holding that :”responses that do not point to any evidence in the record that may create
a genuine issue of material fact do not function as denials, and will be deemed admissions of the stated fact.”
(alteration and internal quotation marks omitted)). However, in light of the Plaintiff’s pro se status, the
Court will consider the actual disputes identified in Plaintiff’s 56.1 statement, provided they are actually
support by evidence in the record. See, e.g., Cherry v. Byram Hills Cent. Sch. Dist., No. ll-CV-3872, 2013
WL 2922483, at *1 (S.D.N.Y. June 14, 2013) (“[W]here a pro se plaintiff fails to submit a proper. . .Rule 56.1
statement in opposition to a summary judgment motion, the [c]ourt retains some discretion to consider the
substance of the plaintiff’s arguments, where actually supported by evidentiary submissions.” (italics and
internal quotation marks omitted )).

(Id. 'll 261.) Plaintiff did not respond to the employee’s statement. (Id. 1 262; see also
Decl. of James A. Randazzo, Esq. (“Randazzo Decl.”) (Dkt. No. 85) Ex. A. (“Pl.’s Dep.”) 182.)
Plaintiff was also told that she would not be hired because she was not in the database as
certified for the position. (Defs.’ 56.1 1 263.) Plaintiff asked that a search be conducted for
both her maiden name, “Annette Oliver.” and her married name, “Annette Shands.” (Pl.’s
56.1 f 260.) As the search was being conducted, Plaintiff said, “You just passed my name,”
but the unidentified female employee nervously said, “oh no. That’s not it.” (Id. 11 39,
179, 260.) Plaintiff said “I am quite sure it was,” and offered to bring in her certification
from home, but the employee said, Oh, [n]o! We can’t let you do that. It’s got to be on our
list.” (Id. <1 260; see also Pl.’s Dep. 183-84 (same); Pl.’s 56.1 11 10, 260 (noting “patterned
responses” of “We only hire from our list. You are not on our list. We cannot hire you.”).)
Plaintiff does not remember if she submitted her resume or an application for the
Elementary School Principal Position, nor does she remember discussing the job posting
with anyone else from the District afterwards. (Defs.’ 56.1 11 264-65.)
In May 2014, Plaintiff applied for an Assistant Principal position at Lakeland
Copper Beech Middle School (“Copper Beech”), where grades six through eight are taught.
(Id. 'll 114,19-20.) Plaintiff first learned of the opportunity to apply for the position when
she visited the District’s Board of Education on May 16, 2014 for the purpose of seeking
employment. (Id. 1 21.) Plaintiff met with Jayana Davis, who is African American, (Id.
1124-26), works in Human Resources, is supervised by Cosgrove, and is responsible
for posting job openings in the District, (id. 11 9-11), for “possibly 20 minutes,” (Id. 1
32). Davis had never met with, spoken with, or heard of Plaintiff before. (Id. 11 2729.) Plaintiff told Davis that she was looking for employment. (Id 131.) Davis showed

*

Plaintiff a bulletin board, and together they looked at job postings. (Id. H 33.) Plaintiff
verbally expressed interest in an administrative position—specifically, the Copper Beech
Assistant Principal position. (Id. M 34-35.) Davis told Plaintiff that the District may be
taking tht post down that same day. (Id. 1 36.) Plaintiff said she intended to give Davis
and application that day, and gave her a copy of Plaintiff’s resume. (Id. 'll'll 37, 43, Pl.’s
56.1 'll 37.) Plaintiff did not give Davis any other documents. (Defs.’ 56.1 *][ 44.)
Davis searched “the New York State Ed Public Inquiry database” for Plaintiff’s
teacher administrator certifications. (Id.
which did not return any results. (Id.

38.)2 Davis searched for “Annette Shands,”
39.) Plaintiff also requested a search he made

for her maiden name, “Annette Oliver.” and Davis affirmed that both of Plaintiff’s names
had been searched. (Pl.’s 56. l^ISl 38-39; see also Davis Dep. 45-46.) Plaintiff attributes
this failure to lack of training of the District’s on-site employees, because Plaintiff is
certified, and the District is able to find Plaintiff’s credentials when she informs them of
her availability to substitute teach. (Pl.’s 56.1 M see also Letter from Plaintiff to Court
(March 27, 2018) (“Compliance Letter”) (Dkt. No. 88) Ex. A (“Certification”), Id. Ex. F
(“Defs. ‘ EEOC Opp’n) 2 SI 4 (admitting that Plaintiff is certified).) Plaintiff offered to bring
in a copy of her certification from home, but was again told, “Oh, no! We have to have it on
our list.” (Pl.’s 56.1 SI 39; see also id. 40 (same).) Davis explained that Plaintiff would not
be considered for the Assistant Principal position if Plaintiff was not certified. (Defs.’ 56.1
S[ 40.) Davis testified that

2 Plaintiff says she “was under the impression that someone other than Davis was doing the searching
and that Davis was the one reporting to [Plaintiffl whatever the other person communicated to her..” (Pl.’s 56.1
K 38.) This is again not a real dispute, as it does not actually contradict the fact that Davis did the search,
(Randazzo Decl. Ex. D (“Davis Dep.”) 42-43), and in any event is not material to deciding the instant Motion.

she advised Plaintiff to contact the New York State Department of Education because
she was unable to locate Plaintiff’s certifications, and provided her with their contact
information, {Id. 1 41-42), but Plaintiff avers that Davis never mentioned the Department
of Education, let alone provided contact information (Pl.’s 56.1 ‘I'll 41-42).3 Plaintiff left
with a copy of the job posting. (Defs.’ 56.1 % 45.)

2. The Copper Beech Assistant Principal
Job and Plaintiff’s Qualifications
Plaintiff read the Assistant Principal job posting and the qualifications the District
was seeking in prospective candidates. (Defs.’ 56.1 f 47.) The posting stated that “New
York State certification” in school administration was “required,” and listed the following
“qualifications”:
• A dynamic, high energy leadership style with a
successful background in middle school education
• A thorough understanding of the Common Core
Learning Standards
• Comprehensive knowledge of middle school
curriculum and instructional methodology
including differentiation
• Ability to communicate effectively with excellent
writing and public speaking skills

3 Plaintiff also alleges that Davis told her she “was mistaken about [her] permanent certification and
... was probably provisionally certified.” (Pl.’s 56.1 K 40.) However, in her deposition, Plaintiff testified

• Habits of administration capable of encouraging
professional cooperation and (enthusiasm to meet
current demands for excellence in public education
Randazzo Decl. Ex. F (“Job Posting”), see also Defs.’ 56.1 ^ 17 (describing the duties of the
Assistant Principal).)
Plaintiff believed that as of May 2014, she had a successful background in middle
school education, as listed in the first requirement. (Pl.’s Dep. 84.) She testified that this
background consisted of (1) working with Copper Beech students in 2003 in conjunction
with the John C. Hart Library,; (2) teaching middle school students in 1969 through 1970
at Mount Vernon High School; and (3) substitute teaching at Copper Beech. (Defs.’ 56.1 ^
53.)4 The first category consisted of leading a voluntary after-school program celebrating
African American History during February of 2001, (id. % 54), which was extended to
include making presentations at Copper Beech and an elementary school in the District,
(Pl.’s 56.11 54). Plaintiff testified that this experience lasted between several weeks and
a month and that Copper Beech students were enrolled in the program, but she could not
remember if the program met once per week or more.

twice that she did “not remember exactly” what Plaintiff said to Davis and what Davis said back to her.
(Pl.’s Dep. 59-60.) The Court therefore declines to consider this new fact, which contradicts Plaintiffs prior
deposition testimony. See Brown v. Henderson, 257 F. 3d 246, 252 (2d Cir. 2001) (“[F]actual allegations that
might otherwise defeat a motion for summary judgment will not be permitted to do so when they are made
for the first time in the plaintiff’s affidavit opposing summary judgment and that affidavit contradictsher
own prior deposition testimony.”).
4 Plaintiff contends that she also has other experience that qualified as background in middle
school education: (1) her experience working as an Administrator for middle school students who were
congregants in Bethel Church in Harlem for over twenty years, (2) working as an Administrative Intern at
the Greenburgh Graham School in Hastings, New York, (3) working in programs at Lehman College and
Mercy College; (4) writing a grant for Bethel’s middle school students to be involved in a summer enrichment
program; (5) being involved in Community Theater with 7-17 year olds; (6) advising Hackley middle school
students of various test strategies; and (7) developing and implementing a summer program for middle
school students in Newark, New Jersey’s Community Action Program (CAP), (Pl.’s 56.1 M 53-55.)

(Defs.’ 56.1 M 55-56.) The John C. Hart Library is a public library for the Yorktown
community. (Id.

57.) Plaintiff did not list the after-school program on her resume, (id. f

58), but she listed it on her purported cover letter dated May 16, 2014, (Pl.’s 56.1 ^1 58.1 ^
58; Compliance Letter Ex. G. (“Email Application”) at 6 (“Cover Letter”)).5
Plaintiff’s resume does state that she worked as a teacher at Mount Vernon High
School in 1969-70. (Defs.’ 56.1 H 67.) Plaintiff contends that she was teaching Traphagen
Middle School students who were being housed in the High School, (PI. 56.1 1 67), and that
her cover letter spoke to work with middle school students “elsewhere,” (Id. 'll 69), but her
resume did not state that she worked in the Mount Vernon Middle School. (Defs.’ 56.1 %
69), or that she worked with middle school students, (Randazzo Decl. Ex. E (“Resume”)).
As to the third category Plaintiff listed—substitute teaching—she testified that she could
not recall which specific years she worked for the District, but it was sometime in the
1980s, 1990s, and 2000s, and that she was a substitute teacher at Copper Beech in the
2000s for 17 or 20 days. (Defs.’ 56.1 M 59-61.) Plaintiff could not remember which classes
she taught in the 1990s and 2000s other than English (Id. ill 62, 64.) She also could not
recall how many days she worked as a substitute teacher in the 1980’s, but knows it was
for more than one day. (Id. i[ 63.) Plaintiff’s last employment by a school district was as
a substitute teacher with the District in 2001 and 2002. (7<i.iI65.) Plaintiff did not include
any of her work substitute teaching for the District on her resume, (id. i[ 66), but it was

5 The cover letter states, in relevant part: “I have worked successfully with middle school students
elsewhere and also at Copper Beech. Several years ago I supervised a number of Copper Beech: students
who volunteered to participate in an African American History Month Celebration which was being
sponsored by the John C. Hart Memorial Library. Then, too, having substituted at Copper beech, I might also
add that staff members told me that I should come back regularly because the students like me. They were
on to say that they overheard a number of students speaking favorably of me. According to staff members,
the gist of what the students said was that they considered me ‘strict but fair.’” (Cover Letter.)

mentioned in her cover letter. (Pl.’s 56.11 66).
Plaintiff also believed that as of May 2014, she had a thorough understanding of
the Common Core Learning Standards, as listed in the second job requirement. (Defs.’
56.1 % 49.) Plaintiff had experience teaching Common Core Learning Standards (the
“Standards”) in summer program at Lehman College in the 1990s and substitute teaching
in the District in the 2000s. (Id. 1 50.) Plaintiff contends that she was also exposed to
the Standards in classes as Ball State University and Columbia University, in her early
teaching, in the Search for Education, Elevation and Knowledge (SEEK) core program at
Lehman College, and in the Science Technology Entry Program (STEP) at Mercy College.
(Pl.’s 56.1 M 49-50.) Plaintiff did not mention the Common Core Learning Standards on
the resume she submitted to the District with her application for the Assistant Principal
position. (Defs.’ 56.1

51.) Plaintiff contends that her cover letter does mention her

knowledge of the Standards, and her resume lists Lehman College and Mercy College,
which used the Standards. (Pl.’s 56.1 1 51; Cover Letter; Resume.)6
According to Plaintiff’s resume, her most recent position in the public education
system was for seven months in 1993 as an administrative intern at the GreenburghGraham School District. (Defs.’ 56.1

70; but see Pl.’s 56.1 f 70 (My most recent work with

public school students has been in the role of an Associate Pastor in Harlem.”).) Plaintiff
testified that she “could have been considered as a Principal” and that faculty and staff
referred to her as “Assistant Principal” during her internship. (Defs.’ 56.1 M 71-72.)
However, Plaintiff did not hold an Assistant Principal or Principal title at any job, and

6 The cover letter references the Standards by stating: “Having had many opportunities to develop
curricula for various groups, help individuals achieve desired standards, review, revise and evaluate programs, I
have no problem understanding Common Core Learning Standards or differentiation.” (Cover Letter.)

indeed listed her position with Greenburgh-Graham on her resume as an administrative

intern. {Id. 'flu 73-74.)
Plaintiff does not dispute this, but contends that she has “performed the duties of an
assistant principal” in a variety of the other positions discussed earlier. (Pl.’s 56.1 % 72.)
According to Plaintiffs resume, prior to her internship, her most most recent employment
in the public education system was as an English teacher at Mount Vernon High School
from 1969-70, and her most recent full-time employment with any school district was that
same year. (Defs.’ 56.1 M 75-76.)7
Her only other employment in the public education system was as an early
childhood and English as a second language teacher at Public School 48 in the Bronx from
1966 to 1969. {Id. 'll 77)
Plaintiffs most recent employment included working as a consultant with
Peekskill Area Healthcare, where she worked for 18 months administering diversity and
sensitivity training sessions, and left in August 2013. {Id. I'll 78-80.) During that time,
Plaintiff also worked as an Associate Pastor at Bethel Church in Harlem, New York,
from 1995 to 2015. {Id. I'll 81-82.) Plaintiff testified that her duties included “community
meetings,” “working with young people” under the age of 16, leading grant programs, and
going on trips, she generally characterized her duties as “education,” because education is
what changes your behavior.” {Id. M 83-84; see also Pl.’s 56.1 'll 84 (noting that

7 Plaintiff states that these facts are “not true” because the grant and guidelines for the STEP
program at Mercy College, where she worked as an administrator from 1978-82, (see Resume), states that
enrolled students were also students from public school districts, (Pl.’s 56.1 ^(^75-76). No such grant is in the
record. In any event, this fact does not create an actual dispute, because working in a program with students
who are also enrolled at public schools does not mean Plaintiff was employed in the public education system.
Moreover, Plaintiff’s resume does not mention STEP, let alone describe it as involving public school students;
rather, she lists that she worked in the “College Opportunity Program” at a college. (Resume.)

‘

congregants were ages ‘newly-born to 103 years of age”).) Plaintiff’s resume and cover
letter do not state that she was at all involved in educating or teaching students while a
pastor. (Defs.’ 56... 1 (ft 85; Cover Letter.) Plaintiffs resume and cover letter also did not
include some other positions, including (1) the SEEK program at Lehman College in 1993;
(2) Mount Olivet Baptist Church; (3) the CAP in New Jersey in the 1970s; and (4) the
Mount Vernon Board of Education in the 1960’s. (Defs.’ 56.1

88; Cover Letter.)

As for the certification requirement, (see Job Posting), Plaintiff holds New York State
Education Department certificates in English and as a School District Administrator, (Defs.’
56.1 U 89; certification). These certificates were obtained in 1969 and 1995, respectively.
{Id. M 90-91.) Plaintiff completed her administrative internship as a requirement for
obtaining her Administrative certification. {Id. H 92.) Plaintiff never held a position as a
School District Administrator after obtaining that certification in 1995. {Id. ‘ft 93.)

3. Plaintiffs Application for the
Copper Beech Assistant Principal Position
The Assistant Principal job posting listed a May 23, 2014 application deadline
and noted that an on-line application through www.olasjobs.org (“OLAS”) was required.
(Job Posting.) OLAS is an Online Application System for educator jobs, and is hosted
by the Board of Cooperative Educational Services, which includes a Putnam Northern
Westchester branch. (Defs’ 56.1 <j[<R94-96.) On May 20, 2014, Plaintiff accessed OLAS and
applied to the District for the Assistant Principal position. {Id. f 99.) Plaintiff input the
responsive information to OLAS. {Id. *][ 100.) Under the “current employment information”
section, Plaintiff filled in “Date Available” as July 1, 2009, (Randazzo Decl. Ex. 1 ((“May 20

Application”) 3.)
Plaintiff’s application stated that she was never appointed tenure in a public
school district in New York. (Defs.’ 56.1 H 102.) She also indicated that she was currently
employed by the District as a substitute teacher. (May 20 Application”) 3.)
In fact, Plaintiff had not worked as a substitute for the District since 2002,
(Defs.’56.1 K 103; Compliance Letter Ex. B), but she maintains that she never removed her
name from the available substitutes list, (Pl.’s 56.1 % 103).
Plaintiff’s application also stated that she had approximately two years of
experience working with grades four through eight, which includes the grades Plaintiff
considers to be “middle school.” (Defs.’ 56.1 M 104-05.) This was accurate, not including
summer programs. (Id.

106.)9 Plaintiff did not put any information in the “Other

Experience in Education” section of the application. (Id. *11 107.) Plaintiff also submitted
references with her application, one of whom was listed as deceased. (May 20 Application 4.)
Plaintiff received a notification from OLAS that her application was successfully
submitted at 7:09 pm on May 20, 2014. (Defs.’ 56.1

110; Randazzo Decl. Ex. 3.) After

receiving this confirmation, Plaintiff e-mailed Cosgrove on May 20, 2014 at 8:37 pm,

8 Defendants contend that this was Plaintiff’s available start date for the Assistant Principal
job, even though she was applying in 2014. (Defs.’ 56.1 1 101.) Plaintiff claims that she registered her
availability to coincide with the job posting’s “effective date” of July 1, 2014, (Pl.’s 56.1 H 101). and that she
does not recall typing in this 2009 date, and this it was a mistake, probably a page from a prior application
she completed in 2008, (Pl.’s Dep. 119-20). In fact, Plaintiff’s OLAS account contained a letter dated
November 19, 2008, addressed to Westchester County School Administrators, applying for the position of
substitute teacher in the District. (Defs.’ 56.1 HI 116-19; Randazzo Decl. Ex. M.) To the extent Plaintiff now
contends that she never drafted this letter or filed it on OLAS, (Pl.’s 56.1HH 46,116-19), this new allegation
contradicts her prior deposition testimony, (Pl.’s Dep. 158-61), and thus will not be considered.
9 To the extent that Plaintiff now avers otherwise, her statements contradict her prior deposition
testimony, (Pl.’s Dep. 123), and in any event, are irrelevant to the question of what she told Defendants,
which is documented in bother versions of the OLAS application, the earlier of which is of undisputed
authenticity, (May 20 Application 3)..

'

attaching a copy other resume and a cover letter dated May 16, 2014. (Defs.’ 56.1 I'll
111-13; Email Application.)10 Plaintiff claims she also submitted this cover letter with her
OLAS application, but does not remember ever seeing it on her OLAS aaccount or taking it
down. (Defs.’ 56.1 *j[ 114, see also Pl.’s 56.1 f 1(100, 114.)
OLAS has a record of an application bearing Plaintiff’s name and information
dated May 28, 2014. (Randazzo Decl. Ex. P. (“May 28 Application”).) Plaintiff testified that
she does not remember submitting an application on this date, (Pl.’s Dep. 138), and not
contends that any such application was sent by someone else or fabricated, (Pl.’s 56.1 'll'll
121-24).11 The May 28 application is largely identical to the May 20 application, except
that it lists Plaintiff’s available start date as July 1, 2014 and contains a field concerning
“Administrative Experience.”
{Compare May 20 Application with May 28 Application; Defs.’ 56.1 *11130.) However, the
“Administrative Experience” field indicates that Plaintiff has “”[n]o” such experience at the
elementary, middle school, high school, or district levels. (Defs.’ 56.1 *1 125.) Plaintiff did
not list her experience administering summer programs, library programs, the Newark
CAP program, or tutoring students in her own home on her resume, cover letter, or either
OLAS application. (Defs.’ 56.1 *|l*l[ 127-128; Cover Letter.)

10 The copy of the resume Plaintiff emailed is slightly different than the resume she submitted on
OLAS. (Compare Email Application with Resume.) Most of the differences are stylistic, including font and
capitalization, but the emailed resume also lists “educational affiliations.” (Email Application.)
11 When an applicant modifies an OLAS application already submitted, this updates the application
date, even if it was timely submitted. (Defs.’ 56.1 U 248.) Thus, it is possible that Plaintiff’s application date
was changed when someone updated her existing application.

4.The District’s Search for and hiring of a
Copper Beech Assistant Principal
The District has a non-discrimination policy, which District employees are trained
in annually, that prohibits discrimination on the basis of race, color, gender, and age, in,
among other things, recruiting and appointing employees. (Defs.’ 56.1 M 131-33.) The
review board tasked with evaluating applications for an Assistant Principal position in the
District consists of Cosgrove, Assistant Superintendent for Curriculum and Instruction
Jean Miccio (“Miccio”), and the Principal of the school seeking to fill the position, (Id. RI
135.) The review board reviews all submitted resumes and determines which applicants to
call for screening interviews based on their qualifications and experiences; after conducting
screening interviews, the board then determines what pool of candidates will proceed for
further interviews by a committee composed of representatives from all of the collective
bargaining units. (Id. M136-139.) A candidate needs only a single vote from a single
review board member to advance to the screening interview stage. (Id. ‘R 167.) Members of
the committee then rate the applicants, and the review board determines which applicants
will proceed to the final round of interviews. (Id. M 142-143.) If the remaining applicants’
references are good, the finalists are interviewed by the District’s superintendent, who
decides which of the finalists to recommend to the School Board to appoint to the position.
(Id. RIRI 145-46.) The School Board then interviews the recommended applicant and choses
to appoint or not to appoint that applicant to the position. (Id. ‘R 147.)
Over 300 candidates applied for the Copper Beech Assistant Principal position,
including Plaintiff. (Id. SI 148.) The review board consisted of Cosgrove, Miccio, and Robert
Bergmann (“Bergmann”). (Id. R[ 150.) Plaintiff’s name appears on the list of applicants

considered by the review board. (Id. H 149.) The review board maintains that it screened
each candidate’s application and resume. (Id. '1151.) However, Plaintiff contends that her
resume, cover letter, and OLAS application were not reviewed until after the District was
notified of her EEOC complaint, filed on October 8, 2014, because (1) she was told she was
not certified and would not be considered or hired, (2) she received an unsigned letter of
denial from Human Resources denying that she was certified and confirming her application
was not considered, and (3) she found “untrue statements and fabricated evidence” in the
District’s response to her EEOC complaint. (Pl.’s 56.1^1 136,148-49,151,167,169,187;
Randazzo Decl. Ex. T (“EEOC Charge”); Compliance Letter Ex. D (“July 2, 2014 Letter”).)12
Yet Plaintiff also does “not dispute what actions [Defendants] say [they] took.” (Pl.’s 56.1 f
167.) Cosgrove testified that when she evaluates candidates for a position, “the number one
thing that [she] look[s] for is the certification,” and “[the] number two thing [she] look[s] for
is the qualifications that [they’ve] put in the posting.” (Defs.’ 56.11152:) She elaborated.
“Qualifications, having experience at the middle school level, that’s the meat and potatoes”
of a candidate’s application. (Id. <][ 153.) Cosgrove claims she reviewed Plaintiff’s May 28,
2014 OLAS application and resume and considered her candidacy for the Assistant Principal
Position. (Id. <][154.) Cosgrove noted that the application did not have “the experience [they]
were looking for,” namely, “middle school experience.”

12 The July 2, 2014 letter is from “The Human Resources Department” in the
District. (July 2, 2014 Letter.) The letter states, in relevant part:
Thank you for your interest in a position with Lakeland Central
School District. Please be advised that our district requires
teaching certification for all of our teaching positions. In oder
to be considered for a teaching position with our district,
current valid NYS certification and on-line application through .
.. (OLAS) are required.

(Id. (JI<J[ 155-56.) Cosgrove also testified that she sought candidates with “ a successful
background in middle school education,” as listed on the job posting, but there was nothing
on Plaintiff’s resume of OLAS application suggesting she had such a background. (Id. 'll'll
157-59.)13 Plaintiff disputes these rationales, because her cover letter mentions having
worked successfully with Copper Beech students, and her resume notes administrative
duties as Associate Pastor and at her internship, as well as her year spent teaching at
Mount Vernon High School, her tenure at Lehman College, and administering STEP at
Mercy College. (Pl.’s 56.1^1^1 155-156,158; Resume; Cover Letter.) Cosgrove also testified
that she sought candidates with “a thorough understanding of the Common Core Learning
Standards,” as listed in the job posting, but there was nothing on Plaintiff’s resume

We post all of our vacancies for teachers.. . on OLAS. We
encourage you to visit the online system to submit your
application and resume, and to review job vacancy listings. To
apply for a position online, please visit http://www.olasjobs.org/
lhv/ and ensure that all information fields are completed, attach
a copy of your resume as a Word file, and then apply for the
specific position(s) you are seeking. Please be advised that the
OLAS system is the only application method utilized by this
district for certified positions. In the interest of fairness, we
are unable to process paper applications.
If there is a vacancy posted, once the positing has closed,
applicants whose qualifications most closely meet district needs
will be contacted by the appropriate department or building for
an interview appointment.
Again, we sincerely thank you for your interest in the Lakeland
Central School District.

(Id. (emphasis in original).) The letter does not reference the Assistant Principal position or any
specific application Plaintiff has filed, and indeed references only teaching positions, not administrative ones.
(See id.)
13 The Court does not understand the basis of Plaintiff’s contention that this “is arbitrary and
without educational merit” and “discriminatory” by ignoring the distinction between teachers and
administrators, and in any event, it is a legal conclusion that cannot create a dispute of fact. (Pl.’s 56.1 <R157.)

*

showing Plaintiff possessed that understanding. (Defs. 56.1 'flu 160-61.) Specifically,
Cosgrove noted that Plaintiff had “no work experience in a school district during the time
the Common Core Learning Standards were being implemented,” in 2012, and Plaintiff
“didn’t list any training [on her resume] that she sought to bring herself up to speed with”
the Standards. (Id. ff 162-164.) Plaintiff again references her cover letter and asserts
that while her experience with the Standards may predate recent implementation, “that
is not to say that [her] knowledge of Common Core Learning Standards is defunct.” (Pl.’s
56.1 1 162.)14
Of the more than 300 applicants for the Assistant Principal position, the review
board selected approximately 20 of them to advance to the screening interview stage.
(Defs.’56.1 lR165.) Eight of those chosen candidates were women. (Id. ^[168.) However,
Plaintiff was not interviewed for the Assistant Principal Position. (Id.1H 178.) Cosgrove
and Bergmann did not recommend Plaintiff advance to the screening interview stage.
(Defs.’ 56.1 <][165 to the screening interview stage, and both contend that Plaintiff’s
gender, race, and age were not a factor in their decisions. (Id. ^[^[169,171-77.)15 Cosgrove
specifically decided not to recommend Plaintiff because of her lack of experience as a
school administrator and lack of experience working at the middle school level. (Id. *][ 170.)
Cosgrove did not know who Plaintiff was when she reviewed Plaintiff’s EEOC Charge of
Discrimination sometime after October 6, 2014, nor did she know Plaintiffs race or age

14 Plaintiff alleges that she is “up to speed” on the Common Core Learning Standards because the
City University of New York instituted core standards earlier than the public schools of New York. (Pl.’s
56.I'll 163.) But, Plaintiff does not explain how this relates to her experience or how, if at all, these standards
are the same as the ones used in public schools, nor does she cite any evidence in support of this claim. In
any event, again, this is not in her application materials. (See May 20 Application; Resume; Cover Letter.)
15 Because a candidate needs only one vote to receive a screening interview, and Plaintiff did not
receive one, Miccio also must have not recommended Plaintiff for an interview. (Defs.’ 56.1 Hit 166- 67,178.)
However, no Party discusses Miccio’s vote in their 56.1 statements.

prior to that date (Id. M 180-82; see also id. M 184-85 (stating that same for Bergmann).)
Plaintiff counters that this indicates Cosgrove and Bergmann never read Plaintiff’s email
or her application, which lists employment date prior to 1970 and work with an African
Methodist Episcopal Church. (Pl.’s 56.1 M180-82,184.) Further, Plaintiff alleges that she
was not hired for the Assistant Principal position because of her age, race and/or gender,
(Defs.’ 56.11 179), and maintains that she encountered discrimination, when seeking
employment as an Administrator in the District, which did not recognize her certification,
but not when she announced her availability to substitute teach, (Pl.’s 56.11 179.)
The District hired Francesco “Frank” Ruolo as Assistant Principal of Copper Beech.
(Defs.’ 56.1 ^[186.)16 Upon review of his resume and application, Cosgrove concluded
that Ruolo had a successful background in middle school education, based on his work
experience as an Assistant Principal at a Yonkers middle school for four years and the
fact that he had received tenure in that position. {Id. OT 187-89.) Cosgrove also concluded
that Ruolo had a thorough understanding of the Common Core Learning Standards,
because his resume stated that he conducted meetings to address students’ strengths and
weaknesses, coordinated the administration of the New York State English language arts
and mathematics assessments, and trained teachers on using the assessments to drive
classroom instruction, which were all “affected by changes to the Common Core.” {Id.
<H<J[190-92)17 However, Cosgrove did not consider Ruolo’s previous experience working with

16 Ruolo was appointed tenure as Assistant Principal on August 14, 2017, and remains in that
position at Copper Beech today. (Id. M 252-53.) Plaintiff provides no factual basis for her contention that
this “is not true.” (Pl.’s 56.1 1 253.)
17 Plaintiff claims to dispute this fact by asserting that “[i]t is appropriate for the Review Board
to have written documentation that sets forth the basis for the selection of successful candidates and the
rejection of others>” (Pl.’s 56.11 190.) The Court will not consider this conjecture, unsupported by any
evidence and irrelevant to the fact asserted in Defendants’ 56.1 statement, here or in any of the numerous
times Plaintiff repeats it. (See id. «192,199-201, 203-04, 216-18, 231, 233-34.)

■

disabled children aged 3 to 16 as the Assistant Director of the Special Needs and Academic
Center enrichment program at the Jewish Community Center of Mid-Westchester, because
it did not “appear to be connected to public school at all.” (Id.

249-51.)

The Review Board conducted Ruolo’s screening interview on June 10, 2014,
and voted unanimously to advance Ruolo to the next round of the hiring process — the
interview committee stage. (Id. M 193, 245). Cosgrove took notes during the interview,
noting Ruolo’s experience as a middle school teacher and assistant principal, which was
his current position. (Id. HH 194-98.)
After the interview, Cosgrove believed that Ruolo “had excellent experience at
the middle school level,” that he demonstrated that “he was a successful middle school
assistant principle already,” that he “answered the questions well,” that he “was very
personable,: and that he “would be received well at the [interview] committee level”
and “would do a good job with the committee.” (Id. M199-203.) Cosgrove therefore
recommended that Ruolo advance to the interview committee stage, and contends that
age, race, and gender were not factors in that decision or her decisions to recommend
that any candidate advance to the next stage in the interview process or to withhold a
recommendation that any candidate advance. (Id. 'll 204-213.)
Miccio was also present at the interview and took notes. (Id. ^[ 214.) Miccio
believed that Ruolo “was a very strong candidate,” that his “answers to [their] questions
demonstrated a comprehensive knowledge of middle school administration and ways of
working with middle school aged children,” and that his knowledge “was based on his
years of experience as an assistant principal at the middle school level and as a teacher.”
(Id. M 215-17.) Miccio thought “Ruolo was exactly the type of candidate [they] were

looking for to fill the ... Assistant Principal position,” and recommended that Ruolo
advance to the committee interview stage. (Id. M 218-19.) Age, race, and gender were not
factors in Miccio’s decision to recommend Ruolo advance, nor were they factors in Miccio’s
decision to recommend any other candidate advance or not advance. (Id. 1'll220-28.)
Similarly, Bergmann was present and took notes at the screening interview. (Id. *jl
229.) Bergman left “with a very positive impression of.. . Ruolo,” “impressed by [his] years
of experience as a successful assistant principal. . . and as a teacher,” finding that “Ruolo
spoke passionately about building relationships with students [and that] [h]is educational
philosophy especially resonated with [Bergmann] because his approach is similar to
[Bergmann’s],” and that “Ruolo spoke knowledgeably about the Common Core Learning
Standards and how at Yonkers the administration promoted a deep level of student
comprehension in each standard before advancing to the next standard.” (Id. M 231-33.)
Bergmann was “convinced” that Ruolo “possessed the qualifications that [they] sought in
a successful Assistant Principal candidate.” And recommended that Ruolo advance to the
committee stage. (Id. ‘HI 234-35.) Age, race, and gender were not factors in that decision,
nor were they factors in Bergman’s decision to recommend or not recommend that other
candidates advance to the next stage in the interview process. (Id. <J[<][ 236-244.)

B. Procedural History
Plaintiff filed the Complaint on May 26, 2015. (Compl. (Dkt. No. 2).) She was
granted in forma pauperis status on June 5, 2015. (Dkt.No.3.) Plaintiff filed an Amended
Complaint on June 10, and a Second Amended Complaint on June 18, 2015. (Am. Compl.
(Dkt. No. 4); Second Am. Compl. (Dkt. No. 6).) The Court issued an Order of Service on

‘

June 19, 2015. (Dkt. No. 7.)
Defendants filed pre-motion letters indicating the grounds on which they would
move to dismiss on August 20 and 21, 2015. (Letter from James A. Randazzo, Esq. to
Court (Aug. 20, 2015) (Dkt. No. 16); Letter from Andrew R. Jones, Esq. to Court (Aug. 21,
2015) (Dkt. No. 17).) Plaintiff opposed this request. (Letter from Plaintiff to Court (Sept.
1, 2015) (Dkt. No. 18), Aff. in Opp’n to Mot. (Dkt. No. 19); Letter from Plaintiff to Court
(Sept. 9, 2015) (Dkt. No. 22).) However, Plaintiff consented dto releasing Attorney Latino
as a Defendant, and the Court ordered Latino dismissed from the case with prejudice on
September 9, 2015. (Dkt. No. 21, 29.) The Court held a conference on November 23, 2015.
(See Dkt. (Nov. 23, 2015); see also Dkt. Nos. 35, 37, 39 (discussing whether Plaintiff could
file an amended complaint).)
The Court held another conference on February 11, 2016 and adopted a briefing
schedule. (See Dkt. (entry for Feb. 11.2016); Order (Dkt. No. 43).) Defendants filed their
Motion to Dismiss and accompanying documents on March 31, 2016, (Dkt. Nos. 44-46.)
Plaintiff opposed the Motion to Dismiss, (Dkt. Nos. 47-48), and Defendants filed a reply,
(Dkt. No. 51). On March 30, 2017, the Court issued an Opinion and Order granting in part
and denying in part the Motion To Dismiss and granting Plaintiff leave to amend certain
claims. (Opinion & Order (Dkt. No. 53).)
On April 14, 2017, Plaintiff filed the operative Third Amended Complaint against
Defendants. (Third Am. Compl. (Dkt. No. 54).) Defendants filed an answer on May 5,
2017. (Answer (Dkt. No. 55).) The Court held a conference on June 15, 2017, and adopted
a case management order. (See Dkt. (entry for June 15, 2017); Order (Dkt. No. 58).) On
December 6, 2017, after discovery closed, Defendants filed a pre-motion letter indicating

the grounds on which they would move for summary judgment, (Letter from James A.
Randazzo, Esq. to Court (Dec. 6, 2017) (Dkt. No. 78)), which Plaintiff opposed, (Letter
from Plaintiff to Court (Dec. 7, 2017) (Dkt. No. 79); Dkt. No. 81 (same)). The Court held
a conference on December 14, 2017 and adopted a briefing schedule. (See Dkt. (entry for
Dec. 14, 2017); Order (Dkt. No. 80).)
Defendants filed the instant Motion for Summary Judgment and accompanying
papers on February 14, 2018. (Not. of Mot; Mem. of Law in Supp. of Mot. for Summ. J.
(“Defs.’ Mem.”) (Dkt. No. 84); Randazzo Decl; Defs’ 56.1) Plaintiff filed a letter opposing
the Motion with accompanying exhibits on March 27 and 28, 2018, her 56.1 Statement and
Declaration on April 17, 2018, and a memorandum of law on April 25, 2018. (Compliance
Letter; Pl.’s 56.1; Pl.’s Decl.; Pl.’s Mem. of Law in Opp’n to Mot. for Summ. J. (“Pl.’s Mem.”)
(Dkt. No. 92).) Defendants filed a reply on May 4, 2018. (Reply Mem. of Law in Supp. of
Mot. for Summ. J. (Defs.’ Reply”) (Dkt. No. 93).)

II. Discussion
A. Standard of Review
Summary judgment is appropriate where the movant shows that “there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); see also Psihoyus v. John Wiley & Sons, Inc. 748 F.3d 120,12324 (2d Cir. 2014) (same). “In determining whether summary judgment is appropriate,” a
court must “construe the facts in the light most favorable to the non-moving party and ..
. resolve all ambiguities and draw all reasonable inferences against the movant.” Brod v.
Omya, Inc., 653 F.3d 156,164 (2d Cir. 2011) (internal quotation marks omitted), see also

•

Wandering Dago, Inc. v. Destito, 879 F .3d 20, 30 (2d Cir. 2018) (same). “It is the movant’s
burden to show that no genuine factual dispute exists.” Vt. Teddy Bear Co. v. 1-800
Beargram Co., 373 F.3d 241m 244 (2d Cir. 2004).
“However, when the burden of proof at trial would fall on the nonmoving party, it
ordinarily is sufficient for the movant to point to a lack of evidence to go to the trier of fact
on an essential element of the nonmovant’s claim,” in which case “the nonmoving party must
come forward with admissible evidence sufficient to raise a genuine issue of fact for trial in
order to avoid summary judgment.” CILP Assocs., L.P. v. Pricewaterhouse Coopers LLP, 735
F.3d 114.123 (2d Cir. 2013) (alteration and internal quotation marks omitted). Further, “
[t]o survive a [summary judgment] motion ..., [a nonmovant] need[s] to create more than
a ‘metaphysical’ possibility that his allegations were correct, he need[s] to “come forward
with specific facts showing that there is a genuine issue for trial.” Wrobel v. County of Erie,
692, F.3d 22, 30 (2d Cir. 2012) (emphasis omitted ) (quoting Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 586-87(1986)), “and cannot rely on the mere allegations
or denials contained in the pleadings,” Guardian Life Ins. Co. v. Gilmore, 45 F. Supp. 3d 310,
322 (S.D.N.Y. 2014) (internal quotation marks omitted); see also Wright v. Goord, 554 F. 3d
255, 266 (2d Cir. 2009) (“When a motion for summary judgment is properly supported by
documents or other evidentiary materials, the party opposing summary judgment may not
merely rest on the allegations or denials of his pleading....”). And, “[w]hen opposing parties
tell two different stories, one of which is blatantly contradicted by the record, so that no
reasonable jury could believe it, a court should not adopt that version of the facts for purposes
of ruling on a motion for summary judgment.” Scott v. Harris, 550 U.S. 372, 380 (2007).
“On a motion for summary judgment, a fact is material if it might affect the outcome

of the suit under the governing law.” Royal Crown Day Care LIC v. Dep’t of Health & Mental
Hygiene, 746 F.3d 538, 544 (2d Cir. 2014) (internal quotations marks omitted). At this
stage, “[t]he role of the court is not to resolve disputed issues of fact but to assess whether
there are any factual issues to be tried.” Brod, 653 F.3d at 164 (internal quotation marks
omitted). Thus, a court’s goal should be “to isolate and dispose of factually unsupported
claims.” Geneva Pharm.Tech. Corp. v. Barr Labs. Inc., 386 F.3d 485,495 (2d Cir. 2004)
(internal quotation marks omitted) (quoting Celotex Corp. v. Carrett, 477 U.S. 317, 323-24
(1986)). However, a district court should consider only evidence that would be admissible at
trial. See Nora Beverages, Inc. v. Perrier Grp. ofAm., Inc., 164 F 3d 736, 746 (2d Cir. 1998).
[W]here a party relies on affidavits or deposition testimony to establish facts, the statements
“must be made on personal knowledge, set out facts that would be admissible in evidence,
and show that the affiant or declarant is competent to testify on the matters stated.’” DiStiso
v. Cook, 691 F.3d 226,230 (2d Cir. 2012) (quoting Fed. R. Civ. R 56 (c)(4)).
Finally, the Second Circuit has instructed that when a court considers a motion for
summary judgment, “special solicitude” should be afforded a pro se litigant, see Graham v.
Lewinski, 848 F.2d 342, 344 (2d Cir. 1988), see also Gomez v. New York City Police Dep’t.
No. 15-CV-4036.2018 WL 158329, at *4 (S.D.N.Y. Mar. 27, 2018) (same), and a court should
construe “the submissions of a pro se litigant... liberally” and interpret them “to raise
the strongest arguments that they suggest.” Triestman v. Fed. Bureau of Prisons, 470
F.3d 471,474 (2d Cir. 2006) (italics and internal quotation marks omitted). Nonetheless,
“proceeding pro se does not otherwise relieve a litigant of the usual requirements of
summary judgment, and a pro se party’s bold assertions unsupported by evidence... are
insufficient to overcome a motion for summary judgment.” Houston v. Teamsters Local

'

210, Affiliated Health & Ins. Fund-Vacation Fringe Ben. Fund, 27 F. Supp. 3d 346, 351
(E.D.N.Y. 2014) (internal quotation marks omitted); see also Flores v. City of New York,
No. 15-CV-2903, 2017 WL 3263147, at *2 (S.D.N.Y. July 31, 2017) (same). Indeed, “[w]hile
summary judgment must be granted with caution in employment discrimination actions,
. . . a plaintiff must prove more than conclusory allegations of discrimination to defeat a
motion for summary judgment.” Aspilaire v. Wyeth Pharm., Inc., 612 F. Supp 2d 289, 302
(S.D.N.Y. 2009) (citations and internal quotation marks omitted).

B. Analysis
Plaintiff claims that Defendants violated the ADEA, the Fourteenth Amendment’s
Equal Protection Clause, and the NYSHRL by failing to recommend and hire her for the
Assistant Principal position at Copper Beech on her age, race and gender. (See generally
Third Am. Compl.) All of these claims are analyzed under the burden-shifting framework
set forth in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802-04 (1973). See D’Cunha
v. Genovese Eckerd Corp. 479 F. 3d 193,194-195 (2nd Cir. 20007) (per curiam) (“Claims
under the ADEA are governed by the three-step burden-shifting framework set forth in
McDonnell Douglas Corp. v. Green.” (citation omitted)); Feingold v. New York, 366 F.3d
138,159 (2d Cir. 2004) (explaining that the elements of an equal protection claim under
§ 1983 and a claim under Title VII are the same and thus the burden-shifting framework
applies to both); Kassel v. City of Middletown, 272 F. Supp. 3d 516, 535 (S.D.N.Y. 2017) (“[T]
he Second Circuit analyzes claims pursuant to NYSHRL under the familiar three-part
framework set forth by the Supreme Court in McDonnell Douglas”).
Under McDonnell Douglas, a plaintiff bears the

initial burden of proving by a preponderance of
the evidence a prima facie case of discrimination, it
is then the defendant’s burden to proffer a legitimate
non-discriminatory reason for its actions; the final
and ultimate burden is on the plaintiff to establish
that the defendant’s reason is in fact pretext for
unlawful discrimination.

Abrams v. Dep’t of Pub. Safety, 764 F.3d 244, 251 (2d Cir. 2014). However for ADEA
claims, at the third step, a plaintiff must show that the discriminatory motive “was a but
for cause of’ the adverse employment action, rather than merely a motivating factor. See
McCormack v. IBM. 145 F. Supp. 3d 258, 266 (S.D.N.Y. 2015) (quoting Gross u. FBI. Fin.
Servs., Inc., 557 U.S. 167,173 (2009)); see also Gorzynski v. Jet Blue Airways Corp., 596
F.3d 93,106 (2d Cir. 2010) (same).

I. ADEA Claim18
The ADEA makes it “unlawful for an employer to fail or refuse to hire . . any
individual... because of such individual’s age.” 29 U.S.C. § 623 (a)(1). Defendants concede
that Plaintiff state a prima facie ADEA claim, but argue that they articulated legitimate,
non-discriminatory reasons for not hiring Plaintiff for the Assistant Principal job, and
Plaintiff failed to create a triable issue as to whether these reasons were a pretext for
discrimination. (Defs. ‘ Mem. 5-8.) The Court agrees.

18 This claim is only against the district, because individuals cannot be held liable for violations of the
ADEA. See Knutson v. G2 FMV, LLC, No. 14-CV-1694, 2018 WL 286100, at *9 (S.D.N.Y. Jan. 3, 2018) (“The
law in the Second Circuit on this question is clear....[ijndividual supervisors may not be held personally
liable under the ADEA.” (internal quotation marks omitted)).

Defendants contend that they chose not to hire Plaintiff, and instead hired Ruolo,
for the Assistant Principal position because he was a better qualified candidate. (Id.)
Specifically, Ruolo had experience working as a middle school assistant principal, a position
in which he received tenure, in the Yonkers school district, and his resume demonstrated
that he coordinated the administration of state-wide assessments that incorporated changes
in the Common Core Learning Standards . (Defs.’ 56.1 ‘fl‘11 188-89,190-92,197-98.) Ruolo
therefore advanced to the screening interview stage, where all of his interviewers thought he
performed well, showing his qualifications for the job, and therefore recommended him to the
next interview stage, contending that age, was not
a factor in that decision. (Id. HH 199-203,205, 208,215-20,223,231-36, 239.) Ruolo’s age
is not mentioned on his application, (Randazzo Decl. Ex. U (resume); Id. Ex. V (OLAS
application)), or in any of the interview notes, (Id. Exs. W. X, Y).
By contrast, no member of the review board recommended that Plaintiff advance
to screening interview stage, so she was not one of the 20 out of 300 applicants that
interviewed for the Assistant Principal position. (Defs.’ 56.1 M 165,169,174,178.)
Cosgrove and Bergmann both contend that this decision was not based on age, and indeed
they were unaware of Plaintiff’s age until they reviewed her EEOC Charge in October 2014.
(Id. M173,177,181,184.) After reviewing Plaintiff’s application, Cosgrove determined
that Plaintiff did not have “middle school experience,” which she noted was “the meat
and potatoes” of “the experience [they] were looking for” in a candidate, nor did she have
“a successful background in middle school application.” (Id. M 153,155-59.) Moreover,
Cosgrove found nothing on Plaintiffs resume showing that Plaintiff had a “thorough
understanding of the Common Core Learning Standards,” because Plaintiff had “no work

experience in a school district during the time [they] were being implemented” in 2012, nor
did she “list any training that she sought to bring herself up to speed with” the Standards.
{Id. HI 160-64.) Indeed, Plaintiff’s application accurately stated that she was never
appointed tenure in a public school district in New York and had two years of experience
working with middle school grades—that is, grades four through eight. {Id. HH 102,104106.) And, regardless of which OLAS application version was considered, neither lists any
school administrative experience. {See May 20 Application; May 28 Application.)
Plaintiff has failed to show that these proffered reasons are a pretext for age
discrimination under the ADEA. Although Plaintiff has cclearly identified what specific
facts indicate age discrimination, the Court has construed her submissions liberally and will
address each potentially relevant fact she raises.
Plaintiff’s main pretext argument is that she is more qualified than Ruolo for the
position. {See Pl.’s Mem. 5-7.) Indeed, she devotes a substantial part of her submissions
to discussing the ways in which she believes she was qualified for the Assistant Principal
job and why Defendants discounted the value of her experience. (E.g., Pl.’s 56.1 HH 53-54,
155-56,162; Pl.’s Mem. 2-7.) However, even assuming Plaintiff possessed experience that
she believes qualified her for the position, it is undisputed that most of that experience
was not actually listed in her application materials. First, her resume did not list the
experience comprising her purported background in middle school education, (see Resume;
see also Defs.’ 56.1 H 58 9 working at John C. Hart library); Id. H 69 (working at the Mount
Vernon Middle School or with middle school students); id.H 66 (substituting teaching); Id.
H 85 (working as a pastor that included educating or teaching students)), her knowledge
of the Common Core Learning Standards, (see Id.\ 51, Pl.’s Dep. 84), any position as an

‘

Assistant Principal or Principal at any job, (See Defs. ‘ 56.1 M 73-74 (listing her position
with Greenburg-Graham as an administrative intern only)), any employment in the public
education system after the 1969-70 school year, (see id. M 75-76), or any of the other
employment positions Plaintiff now identifies as relevant experience, (see id.\ 88 (not listing
the SEEK program, Mont Olivet Baptist Church, CAP in New Jersey, or the Mount Vernon
Board of Education)). Moreover, even assuming that Defendants shouls have considered
Plaintiff’s emailed cover leter, (but see Job Posting (requiring an online application through
OLAS); July 2, 2014 Letter (noting that OLAS “is the only application method utilized by
[the] [D]istrict for certified positions” and that “[i]n the interest of fairness, [they] are unable
to process paper applications”)), it does not contain additional information that renders
Cosgrove’s proffered rationales pretextual, because it does not list experience working at a
middle school or “work experience in a school district during the time [the Common Core
Learning Standards]” were being implemented or “any training that [Plaintiff] sought
to bring herself up to speed with” them. (Defs.’ 56.1 %% 155-59,160-64). Rather, it states
only that Plaintiff “worked successfully with middle school students elsewhere and also at
Copper Beech” through supervising the John C. Hart Memorial library event and substitute
teaching and that she “ha[s] no problem understanding Common Core Learning Standards”
because she has helped “develop curricula for various groups. (Cover Letter.)
Furthermore, to the extent that Plaintiff thinks that Defendants should not have
discounted her non-school experience, she provides no evidence suggesting that this is age
discrimination. See McCormack, 145 F. Supp. 3d at 266 (requiring the plaintiff to present
facts showing that her age was a “but for cause” of adverse employment action). Indeed,
Cosgrove refused to consider Ruolo’s previous experience working with disabled children at

a Jewish Community Center because it did not “appear to be connected to public school at
all.” (Defs.’ 56.1 M 249-51.) See Grady v. Affiliated Cent., Inc., 130 F 3d 553, 56.1 (2d Cir.
1997) ( “The record is perhaps most remarkable for the presence of affirmative evidence .
.. that older and younger trainees were in fact treated the same.””); Venezia v. Luxoticca
Retail N. Am. Inc., No. 12-CV-4467,2015 WL5692146, at *10 (S.D.N.Y. Sept. 28, 2015) (“[W]
ithout any evidence that Defendants treated younger employees differently, Plaintiff has
failed to establish any facts that would support an inference of discrimination based on his
age.”), afFd, 699 F. App’x 53 (2d Cir. 2017); Holowecki v. Fed. Exp. Corp., 644 F. Supp. 2d 338,
353 (S.D.N.Y. 2009) (noting that the plaintiff identified “a handful of younger couriers” who
were not terminated, but “fail[ed] to demonstrate how any of these individuals were treated
differently under circumstances similar to his”), afFd. 382 F. App’x 42 (2d Cir. 2010).
In the place of any evidence of discriminatory intent, Plaintiff posits only her
disagreement with Defendants’ decision to find her less qualified than another (apparently
younger) candidate. However, “[w]hile [the Court} must ensure that employers do not act in
a discriminatory fashion, [it] do[es] not sit as a super-personnel department that reexamines
an entity’s business decisions.” Delaney v. Bank ofAm. Corp. 766 F.3d 163,169 (2d Cir.
2014) (per curiam) (internal quotation marks omitted); see also Sassaman v. Gamache, 566
F.3d 307, 314 (2d Cir. 2009) (“[I]t is not the role of federal courts to review the correctness
of employment judgment, “[P]laintifFs credentials would have to be so superior to the
credentials of the person selected for the job” -Ruolo—“that no reasonable person, in the
exercise of impartial judgment, could have chosen the candidate selected over ... [P]laintiff
for the job in question.” Byrnie v. Town of Cromwell, Bd. OfEduc., 243 F.3d 93,103 (2d
Cir. 2001) (internal 1 quotation marks omitted); see also Wharffv. State Univ. of New York,

•

413 F. App’x 406, 408 (2d Cir. 2011) (“Where a decision to promote one person rather than
another is reasonably attributable to an honest even though partially subjective evaluation
of their qualifications, no inference of discrimination can be drawn, (alterations and internal
quotation marks omitted)). Plaintiff’s subjective disagreement with Defendants’ assessment
of her qualifications does not make their decision discriminatory. See Testa v. CareFusion,
No. 14-CV-05202, 2018 WL 1611378, at *8 (E.D.N.Y Apr. 3, 2018) (“An employee’s subjective
disagreement with his [or her] manager’s evaluation of his [or her] [qualifications] is not
a viable basis for a discrimination claim [under the ADEA].”); Bucek v. Gallagher Bassett
Servs., Inc., No. 16-CV-1344,2018 WL 160-334, at *11 (S.D.N.Y. March 29, 2018) (“[The] [p]
laintiff’s subjective disagreement with [Defendants’] reliance on [a hiring criteria] does
not make it discriminatory”) (collecting cases); Withowich v. Gonzales, 541 F. Supp. 2d 572,
582 (S.D.N.Y. 2008) (“[The] [plaintiff’s disagreement with the way in which the [employer]
weighed his and [a younger candidate] ’s qualifications does not create an issue of material
fact.”). Plaintiff cites no evidence suggesting that her age played any role in the decision not
to hire her, such as comments about her (or Ruolo’s) age or any evidence suggesting that only
younger (and underqualified) candidates advanced in the screening interview stage. See St.
Mary’s Honor Ctr. v. Hicks, 509 U.S. 502, 511 (1993) (holding that “rejection of the defendant’s
proffered reasons [does not] compel [] judgment for the plaintiff,” because the plaintiff “at
all times bears the ultimate burden of persuasion” that the decision was intentionally
discriminatory (internal quotation marks omitted)); id. at 524 (“That the employer’s
proffered reason is unpersuasive, or even obviously contrived, does not necessarily establish
that the plaintiff’s proffered reason of [age] is correct.”). Ultimately, this is not a case in
which “a reasonable jury could conclude that “Defendants” decision to hire Ruolo “was so

lacking in merit as to call into question its genuineness” merely because it did not consider
Plaintiffs non-school-based or older work experience as middle school education experience
Dister v. Cont’l Grp. Inc., 859 F ,2d 1108,1116 (2d Cir. 1988); see also Davis v. State Univ. of
New York, 802, F.2d 638, 642 (2d Cir. 1986) (“[T]he reasons for hiring [another candidate]
were noto so ridden with error that [the employer] could not have honestly relied upon
them.”). Rather, Defendants made a rational judgment that Ruolo was a better candidate
than Plaintiff —and the other 299 people that applied for the Assistant Principal job—and,
absent any evidence that that decision was motivated even in part because of Plaintiffs age,
the Court should not substitute its own judgment for Defendants. See Byrnie, 243 F.3d at
103 (noting that where the younger candidate was not unqualified and the employer was not
unreasonable in selecting that candidate “in light of a comparison of her paper credentials
with [the plaintiffs],” the plaintiff failed to show pretext).
Construing her submissions liberally, Plaintiff also contends that Defendants’ reasons
were pretextual because her application materials were not actually reviewed until after the
District was notified of her EEOC complaint, in October 2014. (See Pl.’s 56.1 M 167,169,
187.) While this proposition, if supported by evidence, could create a dispute of fact as to
whether the reasons Defendants proffered for failing to recommend Plaintiff for a screening
interview and failing to hire her were a pretext for age discrimination created amidst
litigation, Plaintiff has provided no such evidence here. It is undisputed that Plaintiffs
name appears on the list of applicants considered. (Defs.’ 56.1 f 149), and the review board
and the review board reviewed each candidate[‘s application and resume, (id. % 151; see also
Pl.’s 56.1 167 (stating that Plaintiff does “not dispute what actions [Defendants] say [they]
took” but she “cannot agree that [the] screening and hiring process is what it should be”)).

However, Plaintiff now claims her application was not reviewed because she was
told she was not certified and would not be considered or hired, citing hre experiences with
the District and the July 2, 2014 letter she received from Human Resources (Pis.’ 56.1
1136); Compliance Letter 2.) This evidence does not support Plaintiff’s claim). In 2004
and 2014, Plaintiff visited the Board of Education to seek administrative employment,
and was told that she was not listed on their online registry as certified; however, she
maintains that her name was on the list in 2004, she is actually certified, and that the
District always finds her certification for substitute teaching positions. (Defs.’ 56.1
39-40, 260, 263, Pl.’s 56.111 38-39.) As an initial matter, none of these interactions was
with any decisionmaker in the Assistant Principal hiring process, nor do these interactions
indicate that Plaintiffs application was not considered for the position because the
decisonmakers concluded she was not certified—indeed, the 2004 interaction related to
an elementary school position that Plaintiff does not remember applying for (Defs.’ 56.1
11 264-65; see also Davis, Dep. 30 (testifying that she “had no involvement” in the hiring
process for the Assistant Principal position).) At most, they show that Plaintiff was told by
District employees that if she was not certified on their list, her application would not be
considered for a position with the District. (Defs.’ 56.111 40, 263.)19
The July 2, 2014 letter, sent after Plaintiff applied, similarly states that “[the]
[DJistrict requires teaching certification for all of [its] teaching positions.” And indicates
where positions are posted and where to apply on OLAS. (July 2, 2014 Letter.) However,

19 To the extent that Plaintiff argues that she was told she would not be hired by Davis on May 16,
2014, (Pl.’s Mem. 2), this claim is belied by the record, (Defs.’ 56.1^1 40, Davis Dep. 47, 50 (testifying that
she had no knowledge of whether Plaintiff was actually certified at the time, but “told [Plaintiff] that if she
was not certified, her application would not be considered”); Pl.’s Dep 59-60 (testifying that she does “not
remember exactly” the contents of the conversation between Plaintiff and Davis).)

the letter does not mention the Assistant Principal position or Plaintiffs application, let
alone state that Plaintiff would not be considered for the position because she was not
certified. (Id.)

Nor is there any evidence that any member of the review board or the

hiring process claimed that Plaintiffs lack of certification was the reason she was not
hired. Rather, as Plaintiff noted in her cover letter, (Cover Letter), and testified to at her
deposition, it is possible her certification was not listed in the District’s database because
she was certified prior to 1991 and therefore listed on another website called Teach,
(Pl.’s Dep. 75-76). Even assuming Plaintiffs application was not considered because she
was incorrectly deemed not certified, there is no evidence in this record that Defendants
ignored Plaintiff’s certification because of her age - such as evidence suggesting
Defendants knew or were told that her certification would be listed on Teach but refused
to check it—and therefore this fact is insufficient to create a dispute about whether any
of the reasons for not hiring Plaintiff were pretextual. See Moore v. Kingsbrook Jewish
Med. Ctr., No. ll-CV-3625, 2013 WL 3968748, “8 (E.D.N.Y. July 30, 2013) (noting that
“personnel decisions ... that are incorrect do nt support a federal claim unless they are
tainted, at least in part, by illegal discrimination” (alteration and internal quotation marks
omitted)); see also Brown v. New York City Dep’t ofEduc., 513 F. App’s. 89, 91 (2d Cir.
2013) (“Even if [the plaintiff] were correct that the DOE erred in concluding that she was
ineligible for an H-1B visa .. .the record is devoid of evidence indicating that that reason
was a pretext for discrimination rather than simply a good faith mistake.”)20

20 Plaintiff also contends that “untrue statements and fabricated evidence” in the District’s response
to EEOC complaint show that her application was not reviewed until she filed that complaint. (Pl.’s 56.1
H 151.) However, she does not say what those statements were, let alone how they demonstrate that her
application was not reviewed. Indeed, Defendants conceded that Plaintiff was certified in their response to
the EEOC complaint. (Defs.’ EEOC Opp’n 2 ][4.)

*

Lastly, to the extent Plaintiff infers discrimination from the fact tht the District found her
certification for substitute teaching but not for administration, (e.g., Pl.’s 56.1 f 179), these
are different certifications, and if anything, suggest that the District does not generally
discriminate on the basis of age.
Plaintiff also concedes that Cosgrove and Bergmann did not know Plaintiff’s age
prior to reviewing her EEOC complain, but contends that this shows they never read her
email application, which lists employment dates prior to 1970. (Pl.’s 56.1 <H 181.) While
it is certainly a reasonable inference that Defendants could have deduced Plaintiff’s age
from her application, this fact, without more, does not permit an inference that Defendants
decided not to hire Plaintiff based on her age. See Boyer v. Riverhead Cent. Sch. Dist.,
No. 05-CV-54955, 2008 WL 11412042, at * 10 (E.D.N.Y. Sept. 11, 2008) (finding that the
plaintiff testified “she was never asked about her age during the [job] interview,” and that “
[d]espite the purported subterfuge Plaintiff infers was inherent in the [interview] question
about the dates of her prior positions, she has produced no evidence to support such an
inference”), adopted in part, rejected in part, 2008 WL 11412043 (E.D.N.Y. Sept. 29, 2008),
afFd, 343 F. App’s. 740 (2d Cir. 2009); Shaheen v. Gonzales, No. 05-CV-8400, 2006 WL
3164763, at *7 (S.D.N.Y. Nov. 1, 2006) (explaining that while “the law school graduation
dates” listed on certain forms were “sufficient to meet his minimal burden... on the prima
facie case, [the] plaintiff offers no direct exidence that the [defendant] decisionmakers
had actual knowledge of the age discrepancy between him and [the other candidate]”),
Strycharz v. Verizon, No. 01-CV-1050, 2002 WL 31856820, at *3 (S.D.N.Y. Dec. 19, 2002)
(explaining that the plaintiff did not contest that “the management disciplinary committee
who decided to fire him did not know his age”); DeSoignies v. Credit Lyonnais, 617 F. Supp.

707, 712 (S.D.N.Y. 1985) (noting that “the plaintiff did not show any instances of use of
compilation of [the employees’ dates of birth and age”] near to the time of [the] plaintiff’s
discharge,” and “the [c]ourt d[id] not infer from [the] defendant’s awareness of the age of
its employees . . . that it used that information in making decisions such as the decision
to terminate plaintiff”)’; cf. Terry v. Ashcroft, 336 F. 3d 128, 140 (2d Cir. 2003) (explaining
that if handwritten notations as to the candidates’ birth dates were on a memo listing the
“Best Qualified” candidates at the time the employer made his decision, “a trier-of-fact
could infer that [the employer] considered age”).
Plaintiff mentions other facts relating to her age, but these also fail to generate a
factual dispute regarding pretext. First, Plaintiff contends that a member of the Board of
Education incited “ageist remarks” at a meeting on February 4, 2016), but does not state
who this person was, who make the allegedly ageist remarks, or how these relate to the
District‘s undisputed nondiscrimination policy in hiring employees, let alone the decision
to hire Plaintiff. (Pl.’s 56.1 ^[133.)21 In any event, such “stray remarks, even if made by a
decisionmaker, do not constitute sufficient evidence to make out a case of employment
discrimination’” under the ADEA, Parron v. Herbert, No. 17-CV-3848, 2018 WL2538221, at
*9 (S.D.N.Y. May 18, 2018) (alteration omitted) (quoting Danzer v. Norden Sys., Inc, 151
F.3d 50, 56 (2d Cir. 1996)), particularly when they are not linked in any way to the decision
not to hire Plaintiff, nor provided alongside other evidence of discriminatory intent, Testa,
2018 WL 1611378, at *8 (noting that that “stray remarks made months before [the]

21 Indeed, while the School Board is involved in the final decision to appoint someone to the Assistant
Principal position, the Board never reviewed Plaintiff’s application because she did not advance to the
interview stage; moreover, this allegation does not implicate Cosgrove, who participated only in the initial
screening stage. (Defs.’ 56.1 IK 145-46.)

plaintiff’s termination are insufficient to demonstrate a discriminatory intent” and “[i]n
light of the context and the entire record, no rational jury could infer a causal connection
between the comment and [the] plaintiff’s ... termination”); see also Boyle v. McCannErickson, Inc., 949 F. Supp. 1095,1101 (S.D.N.Y. 1997) (noting that “ageist statements...
are not sufficient to satisfy [the] [p]laintifFs ultimate burden”).22
Plaintiff also asserts that the interview committee has no diversity, because it had
no ’’older African American wom[e]n such as [Plaintiff], but cites no evidence to this effect.
(Id. *J[ 139.) Moreover, Plaintiff cites no evidence regarding the interviewers’ ages. See
Esar u. JP Morgan Chase Bank N.A., No. 15-CV-382, 2018 WL 2075421, at *9 (E.D.N.Y.
May 3, 2018) (“[The] [plaintiff’s claim that there is an inference of discrimination from
the fact that [the decisionmaker] is ‘younger’ than [the] [p]laintiff also fails because, as far
as the court is aware, there is no record evidence concerning [the decisionmaker’s] age.”
(citation omitted)). In any event, even if the review board comprised only individuals
younger than Plaintiff, let alone individuals who were also not the same race and gender
as her, this fact alone does not show that their proffered reasons for not hiring her are a
pretext for her age. See Esar, 2018WL 2075421, at *9 (finding that the plaintiff failed to
meet her prima facie burden just by asserting that the decisionmaker “is younger than
[the] [p]laintiff”); Thompson v. Tom Vazquez-Janitorial, No. 05-CV-808, 2006 WL 3422664,
at *3—4 (E.D.N.Y. Nov. 28, 2006) (noting that the fact that “[t]he supervisor who made the
decision to terminate [the plaintiff] ... was only three years younger than [the plaintiff]”

22 Plaintiff also contends that she “understand [[s] that discrimination suits have been filed against
the District,” but “has[s] not seen them,” and fails to describe them, let alone cite to them in the record, such
that they could reasonably be linked to the hiring decision at issue here. (Pl.’s 56.IK 143.)

did not “suggest that his termination was related to his age,” and in any event, the plaintiff
failed to show the supervisor’s proffered reasons were pretextual); see also McCormack, 145
F. Supp. 3d at 266 (requiring the plaintiff to prove that age“ was a but for cause” rather than
merely a motivating factor); of Tremalio v. Demand Shoes, LLC, No. 12-CV-357, 2013 WL
5445258, at *8 (D. Conn. Sept. 30, 2013) (declining to draw an inference against the plaintiff
where “the record d[id] not indicate the extent to which each of the three decisionmakers
was involved, and the extent to which the decision was made by the significantly younger
[supervisor]”); Bennett v. Solis, 729 F. Supp. 2d 54, 68 (D.D..C. 2010) (noting that the
plaintiff’ lack[ed] any evidence of age-based animus on the part of the decisionmaker... who
was in her mid—60’s and only a few years, younger than [the] plaintiff when she made the
decision to terminate him”). Additionally, Plaintiff cites to “statistics” purportedly showing
“ a policy of adverse hiring of the older African American woman.” (Pl.’s Mem. 7.) However,
these statistics do not establish what age these employees were when they applied, who
else they competed against for the position, what prior administrative experience they had,
or who decided to hire them. (Compliance Letter Ex. C.) Moreover, the exhibit containing
these statistics lists several employees over the age of 60. {Id. (listing Laura Cuddy,
Steward Hanson, Marry Ellen Herzog, Raymond Momingstar, Jr. George Stone, Susan
Strauss, Theresa Wilkowski, and Lorraine Yurish).) Finally, Plaintiff asserts that she was
“:discriminated against because of [her] age,” (Pl.’s Mem. 7), but this conclusory statement,
restating her prima facie case without any evidence, is insufficient to show pretext. See
Miller v. Nat’l Ass’n of Sec. Dealers, Inc., 703 F. Supp. 2d 230, 248 (E.D.N.Y. 2010) (“When
an employer accused of discrimination provides convincing evidence explaining its conduct,
and the plaintiffs case rests on conclusory allegations such as these, it is proper for a court

*

to conclude that there is no genuine issue of material fact and to grant summary judgment
for the employer”) see also Brenner v. City of New York Dep’t ofEduc., 659 F. App’x 52, 54 (2d
Cir. 2016) (rejecting “conclusory” argument as “insufficient to carry [the plaintiffs] step-three
burden under either a but-for or motivating factor-standard”).
The Court therefore grants the District’s Motion for Summary Judgment on the
ADEA claim.

2. Section 1983 Claim
Plaintiff also brings a § 1983 claim, alleging that Defendants violated her rights
under the Equal Protection Clause of the Fourteenth Amendment by discriminating
against her on the basis of her race and gender. (Third Am. Compl., Pl.’s Mem. 7-8.)
Defendants argue that Plaintiff has failed to create a dispute of material fact regarding
whether the proffered reasons for not hiring her were a pretext for race or gender
discrimination, and in any event the district cannot be held liable under Monell. (Defs.’
Mem. 8-12.)23 The Court will address each argument in turn.

a. Pretext
Plaintiffs § 1983 claim is analyzed under the McDonnell Douglas burden- shifting

23 Defendants also argue briefly that Cosgrove was not personally involved in the constitutional
violation. (Defs.’ Mem. 8.) However, because Cosgrove participated directly in the allegedly discriminatory
hiring process—she reviewed Plaintiff’s application and did not recommend her for a screening interview
and did recommend Ruolo—this argument fails. See Grullon v. City of New Haven, 720 F.3d 133,138 (2d
Cir. 2013) (listing as a category of personal involvement when “the defendant participated directly in the
alleged constitutional violation”). Barnes v. Ross, 926 F. Supp. 2d 499, 508 (S.D.N.Y. 2013) (holding that a
plaintiff sufficiently alleged personal involvement where the defendant personally interviewed the plaintiff
in connection with his allegedly discriminatory treatment). She can be liable for discrimination even if she
was not involved in the ultimate decision to hire Ruolo. (Defs.’ 56.1 H147.)

standard. See Feingold, 366 F. 3d at 159. Defendants concede that Plaintiff has stated
a prima facie case of race and gender discrimination, but argue that they had legitimate
non-discriminatory reasons for deciding not to invite Plaintiff to a screening interview and
hiring Ruolo instead, and that Plaintiff has not created a fact dispute that these reasons
were a pretext for discrimination. (Defs.’ Mem, 9; Defs.’ Reply 3.) The Court agrees.
The Court has already discussed Cosgrove’s and the other review board
members proffered reasons for not selecting Plaintiff for a screening interview and for
recommending Ruolo for the Assistant Principal position. To create a factual dispute
regarding whether these reasons were pretextual, Plaintiff may show that Defendant’s
proffered justifications are “false,” or she “may instead rely on evidence—circumstantial
or otherwise—showing that [her gender and race] w[ere].. . motivating factor [s]” in the
decision to interview, and ultimately hire. Ruolo instead of plaintiff. Holtz v. Rockefeller
& Co, Inc., 258 F.3d 62, 81 (2d Cir. 2001) (citations and internal quotation marks omitted)’
see also Ya-Chen Chen v. City Univ. of New York, No. ll-CV-320, 2014 WL 1285595, at *7
(S.D.N.Y. Mar. 31, 2014) (requiring the plaintiff to produce “sufficient evidence support a
rational finding that. . . more likely than not discrimination was the real reason for the
employment action” (alterations and internal quotation marks omitted)), afFd, 805 F.3d
59 (2d Cir. 2015). Although she identifies several facts she believes show discrimination,
Plaintiff has not satisfied this standard.24
Plaintiff relies on many of the same pretext arguments she did in the ADEA context.

24 Plaintiff does not discuss the decisions of the interview committee, the Superintendent, or the
School Board, all of whom participated in the later stages of the interview process with Ruolo but none of
whom was sued here. She does contend that the Superintendent is “merely a figurehead or rubber stamp”
and his decision is pre-determined by the recommendations he receives, but provides no evidence for this
assertion. (Pl.’s 56.1 "M 146-47.)

•

First, Plaintiff argues that Defendants hired Ruolo, a male Caucasian who she believes
is less qualified and less experienced than her—in other words, her prima facie case.
(Pl.’s Mem. 10, Compliance Letter 3.) As in the ADEA context this is insufficient to show
that Defendants’ proffered reasons were a pretext for gender or race discrimination.
See Bucek, 2018 WL 16093334, at *11 ( Plaintiff’s subjective disagreement with
[Defendants’] reliance on [a hiring criteria] does not make it discriminatory.”); Nyuyen
v. Dep’t. ofCorr. & Cmty. Servs., 169 F. Supp. 3d 375, 3994 (S.D.N.Y. 2016) (rejecting
the plaintiff’s “subjective belief that he was more qualified for the position,” including
that “he had greater experience, or ‘more seniority,”’ as insufficient to show pretext);
Concepcion v. City of New York No. 15-CV-2156, 2016 WL 386099, at *14 (S.D.N.Y. Jan.
29, 2016) (“[P]laintiff’s] subjective assessment of her own qualifications is insufficient
to create a genuine factual issue as to whether the [defendant’s] proffered reason for
its hiring decision are pretext for discrimination.”), aff’d, 693 F. App’x 31 (2d Cir. 2017);
Estrada v Lehman Bros., No. 99-CV-8559, 2001 WL 43605, at *5 (S.D.N.Y. Jan. 18, 2001)
(“The mere fact that [the plaintiff] may disagree with his employer’s actions or think
that his behavior was justified does not raise an inference of pretext.”); see also Smith
v. Ward Leonard Elec. Co., No. 00-CV-3703, 2004 WL 1661098, at *9 (S.D.N.Y. July 23,
2004) (holding that the plaintiff could not establish pretext “on his weak prima facie
case alone”). This is particularly true where Plaintiff does not argue that the criteria
(Defendants relied on were discriminatory; indeed, it is undisputed that they were listed
in the job posting. (See Job Posting.) See MacBain v. Smiley Bros. Inc., No. 10-CV-1561,
2013 WL 621932, at *12 (N.D.N.Y. Feb. 19, 2013) (noting that the plaintiff provided
no “objective evidence” showing that “she was not actually terminated according to the

neutral criteria of seniority but rather for discriminatory reasons”); Bagdasariajn v.
O’Neill, No. 00-CV-258E, 2002 WL 1628722, at *5 (W.D.N.Y. July 17, 2002) (“As the
Second Circuit Court of Appeals was held,
. . . where an employer uses objective or verifiable standards and makes selections in
a nondiscriminatory fashion, he or she can decide which employee is most qualified.”
(alterations and internal quotation marks omitted)).
Plaintiff does not point to any other facts in the record indicating that
Defendants’ decision was motivated even in part by Plaintiff’s gender or race. See St.
Mary’s Honor Ctr., 509 U.S. at 511 (holding that “rejection of the defendant’s proffered
reasons [does not] compel [] judgment for the plaintiff,” because the plaintiff “at all
times bears the ultimate burden of persuasion: that the decision was intentionally
discriminatory (internal quotation marks omitted)). As to race, Plaintiff avers that “to
[her] knowledge[,] the instant . . .lawsuit does not mention race,: which the Court finds
odd. (Pl.’s Decl.

123.) In any event, Ruolo’s race is not mentioned on his application,

(Randazzo Decl. Exs. U.V.), the interviewers do not mention race (or gender) in their
notes from his screening interview, (id. Esse. W. X. Y ); and they contend that these were
not factors in choosing Ruolo or not recommending other candidates. (Defs.’ 56.1 ‘HU
206-07, 209-10, 212-13, 221-22, 224-25, 227-28, 237-38,240-41, 243-44.) Cf, Nguyen, 169
F. Supp. 3d at 389 (finding that mere discussion of race in an interview alone does not
“reflect any discriminatory animus on the part of [the] interviewers”). Similarly, it is
undisputed that Plaintiff's race is not mentioned in her application materials, (Resume;
May 20 Application; May 28 Application), and that Cosgrove and Bergmann did not
know Plaintiff’s race when they evaluated her application. (Defs.’ 56.1^[^[ 180,182,

'

185.)25 See, e.g., Pena-Barrero v. City of New York, No. 14-CV-9550, 2017 WL 1194477, at “13
(S.D.N.Y. Mar. 30, 2017) (“[B]ecause it is undisputed that [the defendants] did not know [the]
[p]laintiff was Colombian when [the] [p]laintiff worked for them,... statements [mentioning
race or national origin] do not suffice to show that [the] [defendants’ reasons for terminating
[the] [p]laintiff were pretext for race or national origin discrimination.” (citations omitted)),
affd, 2018 WL 1181180 (2d Cir. Mar. 7, 2018). Plaintiff does argue that the interview
committee had no African Americans on it, but even assuming this was supported by
evidence, it is alone insufficient to show Plaintiff was not hired because of her race. See
Henny v. New York State, 842 F. Supp. 2d 530,557 (S.D.N.Y. 2012) (collecting cases holding
that the mere fact that a plaintiff is of a different race than the decisionmaker is insufficient
to show that the decisionmaker’s conduct was motivated by racial discrimination).
As to gender, Plaintiff asserts that “[i]t is likely that a preponderance of women were
qualified and ... applied and that a preponderance of women were rejected.” But provides
no factual basis for this claim. (Pl.’s 56.1 H 168.) Indeed, it is undisputed that of the 20 out
of 300 applicants chosen to advance to the screening interview stage, eight were women.
(Defs.’ 56.1 ‘HI 165,168.) “This fact alone diminished the Plaintiff[‘s] prospect for raising an
inference of employment discrimination.” Garnett-Bishop v. New York C’mty Bancorp, Inc.,
No. 12-CV-2285,2017 WL 836562m at *32 (E.D.N.Y. Mar. 2, 2017) (collecting cases).
Moreover, Cosgrove, one of the three members of the review committee, is female, further

25 Plaintiff again argues that this proves her emailed application was never read, because it mentions
her work with an African Methodist Episcopal Church. (Pl.’s 56.1 H 182.) The Court notes that the resume
submitted with Plaintiffs OLAS application states only “Bethel Church,” (Resume), while the resume
Plaintiff emailed to Cosgrove says “Bethel African Methodist Episcopal Church,” (Email Application).
Even assuming Defendants read the emailed version, the fact that Plaintiff was an associate pastor at an
African church does not guarantee she is African American, let alone indicate that Defendants considered
this when deciding not to interview her. To the extent Defendants did not read her emailed application, (see
Job Posting requiring online application only)), this fact also does not create an inference of discrimination.

undermining Plaintiff’s gender discrimination claim. See Blasi v. New York City Bd. Of
Educ., No. 00-CV-5320, 22012 WL 3307227, at *21 (E.D.N.Y. Mar. 12, 2012) (“When the
decisionmaker is of the same protected category as the plaintiff, discrimination is less
plausible albeit not impossible.”), adapted by 2012 WL 3307346 (E.D.N.Y. Aug. 12, 2012),
aff’d, 544 F. App’x 10 (2d Cir. 2013). Conversely, the fact that at least Bergmann was male
does not alone mean his decision was based on Plaintiff’s gender.26 See Bueck, 2018 WL
1609334, at * 13 (“[T]his claim (Defs.’ 56.1

135.) amounts to an assertion that because

a male made the decision to hire another male over a female, it was discriminatory. That
is not the law.”). Finally, to the extent Plaintiff again relies on the list of principals and
administrators in the district since 2012 to show discrimination in hiring, the Court
already explained how this document does not indicate what positions these employees
applied for, who made the decisions to hire them, whether their race was known to those
that hired them, who they were competing against for their position, and what their prior
experience was (See Compliance Letter Ex. C.) See Saenger v. Montefiore Med. Ctr., 706
F. Supp. 2d 494, 514 (S.D.N.Y. 2010) (“[V]ague claims of differential treatment alone do
not suggest discrimination, unless those treated differently are similarly situated in all
material respects.” (internal quotation marks omitted)). Moreover, this list indicates
that multiple women serve as administrators and principals in the District. (Compliance
Letter Ex. C.) To the extent that Plaintiff is relying on these “statistics” to show a pattern
of discrimination merely because she was told she would not be hired because she was not
certified, this claim fails for the reasons explained earlier—namely that it is not supported

26 Jean Miccio’s gender is not clear from the record.

*

by any evidence in the record. (Pl.’s Mem. 7-8.)27
Therefore, absent any evidence that Plaintiff’s gender or race played any role
in Defendants’ decision not to hire her as the Assistant Principal, the Court will not
substitute its own judgment for that of Defendants, who made a judgment that Ruolo was
a better qualified candidate than any of the 299 other candidates, including Plaintiff. See
Byrnie 243 F. 3d at 103 (noting that where the other candidate was not unqualified and
the employer was not unreasonable in selecting that candidate “in light of a comparison
of her paper credentials with the [the plaintiff’s],” the plaintiff failed to show pretext);
Newsome v. IDB Capital Corpo., No. 13-CV-6576, 2016 WL 1254393, at *22 (S.D.N.Y. Mar.
28, 2016) (“At their heart, [the] [plaintiffs’ claims reflect the disagreement with thte
[defendants’ business judgments ... or reflect the [plaintiffs’ subjective feelings and
percepetions that they were being discriminated against because of their ... gender. Such
claims are however, insufficient to establish discrimination.”). The Court therefore grants
Defendants’ Motion for Summary Judgment on the § 199983 claims.

b. Monell Liability
The District also argues that Plaintiff;s § 1983 claims should be dismissed against
it for failure to provide evidence of a policy, custom or practice thata caused the alleged
constitutional violations. (Defs.’ Mem. 9-i2.) “Congress did not intend municipalities to be
held liabale [under §1983] unless action pursuant to official municipal policy of some

27 Plaintiff cites a case holding that requiring applicants to “fit” or “fit [] in” is evidence of pretext,
Abrams v, Dep’t of Public Safety 764 F. 3d 244, 253 (2d Cir. 2014). However, she cites the evidence indicating
that such statements were made by anyone employed by the District or that “fitting in” was a requirement of
the Assistant Principal job. (Pl.’s Mem. 9.)

nature caused a constitutional tort.” Monell v. Dep’t of Social Servs., 436 U.S. 658, 691
(1978). Thus, “to prevail on a claim against a municipality under [§] 1983 based on acts
of a public official, a plaintiff is required to prove: (1) actions taken under color of law;
(2) deprivation of a constitutional or statutory right, (3) causation; (4) damages; and (5)
that an official policy of the municipality caused the constitutional injury.” Roe v. City of
Waterbury, 542 F. 3d 31, 36 (2d Cir. 2008). In other words, a municipality may not be liable
under §1983 by application of the doctrine of respondent superior.” Pembaur v. City of
Cincinnati, 475 U.S. 469, 478 (1986) (italics omitted).
A plaintiff may satisfy the “policy or custom” requirement by showing one of the
following:
(1) A formal policy officially endorsed by the
municipality; (2) actions taken by government
officials responsible for establishing the municipal
policies that caused the particular deprivation in
question; (3) a practice so consistent and widespread
that, although not expressly authorized, constitutes
a accustom or usage of which a supervising
policy-maker must have been aware; of (4) a failure
by policymakers to provide adequate training or
supervision to subordinates to such an extent that
it amounts to deliberate indifference to the rights of
those who come into contact with the municipal
employees.

*

Brandon v. City ofN.Y., 705 F. Supp. 2d 261, 276-77 (S.D.N.Y. 2010) (citation omitted);
Patterson v. County of Oneida, 375 F. 3d 206, 226-27 (2d Cir. 2004) (same). Moreover, a
plaintiff also must establish a causal link between the nunicipality’s policy, custom, or
practice and the alleged constitutional injury. See City ofOkla.
v. Tuttle, 471 U.S. 808, 824 n. 8 (1985) (“The fact that a municipal ‘policy’ might lead to
‘police misconduct’ is hardly sufficient to satisfy Monell’s requirement that the particular
policy be the ‘moving force’ behind a constitutional violation. There must at least be
an affirmative link between, for example,] the training inadequacies alleged, and the
particular constitutional violation at issue.”)
As an initial matter, without an underlying constitutional violation, the District
cannot be liable under Monell. See Segal v. City ofN.Y., 459 F. 3d 207, 219
(2d Cir. 2006).28 Even assuming a constitutional violation, Plaintiff fails to provide any
evidence creating a dispute of fact as to a policy, custom, practice, or action by a final
policymaker. Construing her submissions liberally, Plaintiff alleges that the District had
a discriminatory policy of refusing to acknowledge her certification and therefore refusing
to hire her when she sought employment (Compliance Lettre 2; Pl.’s Mem. 7-8.) Plaintiff
does not cite any facts showing a policy of discrimination I the District’s hiring process of
its certification search process. Instead, she attempts to impose vicarious liability on the
District for purported violations of its nondiscrimination policy. (Defs.’ 56.1 M 131-33),

28 To the extent Plaintiff now argues that the interactions she had with District employees in 2004
and 2014 were independent constitutional violations, these claims fail, because Plaintiff introduced no
evidence that she applied for the job in 2004, and it is undisputed that Davis, a non-party, was not involved
in the 2014 hiring process. (Davis Dep. 30.) See Gaffney v. Dep.t of Info. Tech. & Telecomms., 536 F. Supp. 2d
445, 469-70 (S.D.N.Y. 2008) (requiring that a plaintiff actually apply for a position and not receive an offer of
employment to establish a prima facie failure to hire case).

“in direct violation of Monell,” Tyrrell v. Seaford Union Free Sch. Dist., 792 F. Supp. 2d
601, 632 (E.D.N.Y. 2011) (dismissing Monell claim where the “plaintiff’s argument [wa]s
not that [the] defendants acted pursuant to an official discriminatory policy. . . . Rather,
[the] [p]laintiff ‘ s argument [wa]s that a defendant] failed to act in accordance with [the]
policy”). Further, even assuming that Plaintiff’s interactions with the HR employees were
discriminatory, these two “isolated incidents,” ten years apart, “are insufficient as a matter
of law to show a [District] custom under ... Monell.” Tuminello v. Doe, No. 10-CV-1960,
2013 WL 1845532, at *4 (E.D.N.Y. Apr. 30, 2013) (collecting cases).
Furthermore, the only actors who allegedly violated Plaintiff’s constitutional rights
are the two HR employees and the members of the review board, including Cosgrove.
However, none of these individuals is a final policymaker whose actions give rise to
Monell liability. (Defs.’ 56.1 M 136-47 (stating that the review board only determines
who to invite for interviews and who will proceed to the committee interview sage,
after which the Superintendent interviews finalists and make a recommendation to the
Board of Education, which may adopt the recommendation).) See Gerordi v. Huntington
Union Free Sch. Dist., 124 F. Supp. 3d 206, 228-29 (E.D.N.Y. 2015) (explaining that
employees who screened and interviewed individuals before recommending candidates
to the superintendent and the board “were not ‘final policymakers’ with regard to the
District’s decision not to hire the [p]laintiff” and there was no evidence to the record that
the school board delegated its policymaking powers to these individuals); T.E. v. Pine
Bush Cent. Sch. Dist, 58 F. Supp. 3d 332, 372-73 (S.D.N.Y. 2014) (explaining that under
New York law, the Board of Education is responsible for creating rules and policies); N.
Y. Educ. Law § 1709 (16) (providing that the Board of Education has authority over a

•

school district’s hiring policies). Put differently, these District employees could not have
established the purported municipal policies that violated Plaintiff's constitutional
rights, and their failure to provide adequate training or supervision to subordinates
cannot amount to deliberate indifference to Plaintiff's rights. See Brandon, 705 F.
Supp. 2d at 276-77. Indeed, even assuming that Plaintiff is broadly alleging that the
District itself is liable for providing deficient training to its employees in searching for
certifications, Plaintiff’s allegations are purely conclusory, (Pl.’s Mem. 8; Pl.’s 56.1 M
38-39), identifying no evidence creating a dispute regarding deliberate indifference or a
specific deficiency in the District’s training program. See Wray v. City of New York, 490 F.
3d 189, 196 (2d Cir. 2007) (requiring the plaintiff to identify a “specific deficiency: in the
municipality’s training program); Walker v. City of New York, 974 F. 2d 293, 297-98 (2d
Cir. 1992) (listing requirements for deliberate indifference from training under Monell);
see also Sutton v. City of Yonkers, No, 13-CV-801, 2015 WL 590189, at *5 (S.D.N.Y. Jan. 26,
2015) (“A plaintiff’s conclusory allegations of municipal liability will not defeat a motion
for summary judgment on a Monell claim.” (alteration and internal quotation marks
omitted)), adapted by 2015 WL 876459 (S.D.N.Y. Mar. 2, 2015). Therefore, the Court grants
the District’s Motion for Summary Judgment on Plaintiff’s § claims.

3. NYSHRL Claim
Because Plaintiff’s race and gender discrimination claim under the NYSHRL is
analyzed under the same framework as her § 1983 claim, it fails for the same reasons
identified above. See Kassel, 272 F. Supp. 3d at 535(holding that NYSHRL claims are analyzed
under McConnell Douglas)’, Bermudez v. City of New York, 783 F. Supp. 2d 560, 586-87

(S.D.N.Y. 2011) (dismissing the plaintiff’s NYSHRL race and gender discrimination claims “for
the same reasons that her ... discrimination claim[s] under ... [§1983 .. .[were] dismissed”);
cf. Geras v. Hempstead Union Free Sch. Dist., 149 F. Supp. 3d 300, 339 (E.D.N.Y. 2015) (holding
that if NSYHRL claim survives summary judgment, so too must the parallel § 1983 claim).
The Court therefore grants Defendants’ Motion for Summary Judgment on this claim.29

Ill-Conclusion30
For the foregoing reasons, Defendant’s Motion for Summary Judgment is granted.
The Clerk of Court is respectfully directed to terminate the pending Motion, (Dkt. No. 83),
enter judgment for Defendants, close this case, and mail a copy of this Opinion to Plaintiff,
SO ORDERED.

29 The Court need not address Defendants’ alternative argument that Plaintiff failed to satisfy the
notice of claim requirement under New York Education Law § 3813(1). (Defs.’ Mem. 12-13.) See Marino
v. Chester Union Free Sch. Dist., 859 F. Supp. 2d 5i66, 570 (S.D.N.Y. 2012) (“Section 3813(1) of [the] New
York State Education Law provides that no action may be maintained against a school district unless notice
of claim was served within three months of the date on which the claim accrued.”). However, the Court
notes that Plaintiff's claim accrued at the latest on July 2, 2014, when Plaintiff received a letter from the
District which she interpreted to say her application for the Assistant Principal position had been denied.
(July 2, 2014 Letter; Pl.’s 56.1 ^ 136.) See Nash v. Bd. of Educ. of the City of New York, No. 99-CV-961, 2018
WL 2316337, at *4 (S.D.N.Y. May 8, 2018) (“NYSHRL[‘s] .. .one-year statute of limitations is triggered on
the date that an adverse employment determination is made and communicated to the plaintiff.” (internal
quotation marks omitted)); see also Petty v. City of New York, 633 F. App’x 52, 53 (2d Cir. 2016) (holding that
the plaintiff's NYSHRL claim accrued when he received the final letter “informing him his employment
application was rejected”). Therefore, even assuming the communications Plaintiff proffers could satisfy the
notice of claim requirement, (see Pl.’s Mem. 1-2), none was filed within the three-month deadline - that is,
by October 2, 2014, § 3813(1). This alone could permit the Court to dismiss Plaintiff’s NYSHRL claim. See
Nelson v. Mount Vernon City Sch. Dist., No. 15-CV-8276, 2017 WL 1102668, at *3 (S.D.N.Y. Mar. 23, 2017)
(noting that “failure to comply is a fatal effect mandating dismissal of the action” (internal quotation marks
omitted)).
30 Plaintiff asserts that Cosgrove has been hacking into her computer and tampering with her files.
(Compliance Letter 4.) This claim is not in the operative Complaint, (Third Am. Compl.), and in any event,
Plaintiff does not have standing to bring criminal charges, see Salvador v. State of New York, No. 12-CV-7299,
2013 WL 12080930, at *1 (S.D.N.Y. Feb. 19, 2013) (“The Supreme Court has held that a private party does
not have standing to file or prosecute a criminal case because ‘a private citizen lacks a judicially cognizable
interest in the prosecution or nonprosecution of another.’” (quoting Leeke v. Timmerman, 454 U.S. 83, 86
(1981) (per curiam))); aff’d, 550 F. App’x 56 (2d Cir. 2014). Moreover, Plaintiff cites no admissible evidence to
substantiate these allegations. (Compliance Letter Ex. K (listing emails in different folders on a typed word
document with no authentication of explanation of context).)

*

DATED:

July _ 5_, 2018
White Plains, New York
s/Kenneth M. Karas
Kenneth M. Karas
UNITED STATES DISTRICT JUDGE

Appendix F

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

No. 15-CV-4260 (KMK)
OPINION & ORDER

ANNETTE SHANDS
Plaintiff
v.
LAKELAND CENTRAL SCHOOL
DISTRICT, et al.
Defendants

Appearances:

Annette Shands
Cortlandt Manor, NY
Pro Se Plaintiff
Appendix F

Denise M. Cossu, Esq.
James A. Randazzo, Esq.
Gaines, Novick, Ponzini, Cossu & Venditti, LLP
White Plains, NY
Counsel for Defendants

KENNETH M. KARAS, District Judge:
Pro se Plaintiff Annette Shands (“Plaintiff”) filed the instant Action pursuant
to Title VII of the Civil Rights Act (“Title VH”), 42 U.S.C. §2000e et seq., the Age
Discrimination in Employment Act (“ADEA”), 29 U.S.C. §621 et seq., the New York
State Human Rights Law (“NYSHRL”) N.Y. Exec. Law § 296, the New York City Human
Rights Law (“NYCHRL”), and the New York State Education Law against the Lakeland
Central School District (“School District”), George E. Stone (“Stone”), Tammy Cosgrove
(“Cosgrove”), Mary Ellen Herzog (“Herzog”), Jim Van Develde (“Van Develde”), Jean Miccio
(“Miccio”), and Raymond Morningstar (“Morningstar,” and collectively, “Defendants”),
alleging that Defendants discriminated against her on the basis of her age, sex, and race,
and violated the Education Law by drafting a vacancy announcement in such a way that it
favored certain candidates, (See generally Second Am. Compl. (“SAC”) (Dkt. No.6).) Before
the Court is Defendants’ Motion To Dismiss the Second Amended Complaint pursuant to
Federal Rule of Civil Procedure 12(b)(6). (Dkt. No. 44) For the reasons explained herein,
Defendants’ Motion is denied in part and granted in part.

a

I. Background
A. Factual Background
The following facts are drawn from Plaintiff’s Second Amended Complaint, the
documents appended thereto and the filings Plaintiff submitted in opposition to the
instant Motion, and are taken as true for the purpose of resolving the Motion.
Plaintiff alleges that she is an African American over the age of 65 and is “duly
qualified to be employed as an [a]dministrator within the school systems of the State of
New York.” (SAC HI.) She earned her permanent teaching certification in February 1995,
(Id. H 4, id. Ex. A.)
In May 2014, Plaintiff became aware of an Assistant Principal position with the School
District. (Id. H 5.) She went to a School District facility on May 16, 2014 and inquired about
the position, but was told that the application window might be closed that day. (Id. 1 6.)
Plaintiff was further told that she was not within the School District’s database of persons
listed as having permanent certifications and that only persons in that database would be
considered for the Assistant Principal position. (Id. ‘I 7.) Plaintiff left the facility and applied
for the position online. (Id. H 9; id. Ex. C. atl.) Prior to submitting the application, Plaintiff
verified with the New York State Department of Education that she was listed in the state’s
database as having permanent certification as an administrator. (Id. H 9.)
During the application process, Plaintiff noticed that the vacancy announcement
stated that a successful candidate would have a “background in middle school education.” (Id.
H 10 (internal quotation marks omitted); Id. Ex. B.) Plaintiff alleges that this requirement
“violates and effectively alters the New York State requirement for permanent certification
as an administrator which accepts any teaching experience for a stated number of years

in grades Nursery./Kindergarten (N/K) through 12.” (Id. ^ 11.) Essentially, she contends
that the School District limited the pool of candidates for the middle school Assistant
Principal position to :”only those with middle school experience, thus depriving those
candidates, including [her],” “with little or no middle school experience, but “with comparable
administrative experience in other school settings!,]... [of] the opportunity to be employed.”
(Id. M 13,15.) This requirement also allegedly favors applicants younger than Plaintiff
because middle school administrative certification became available only after Plaintiff
earned her permanent certification. (Id. ]] 16)
Plaintiff was not hired for the Assistant Principal position. According to Plaintiff, “there is
absolutely no evidence to suggest that... [her] application or cover letter w[ere] given any
consideration.” (Pl.’s Aff’n in Opp’n to Defs.’ Mot. (“Pi’s AfFn) 2 (Dkt. No. 47).) A “younger,
less-experienced [,] and less qualified Caucasian male was” ultimately hired. (Pi’s Aff’n 3; see
also SAC M 17—18.) Because she was not hired, Plaintiff filed a complaint with the Equal
Employment Opportunity Commission (“EEOC”). It issued a notice of right to sue letter in
February 2015. (SAC Ex. C, at 2.)

B. Procedural Background
Plaintiff filed a Complaint on May 26, 2015, (Dkt. No. 2.) On June 10, 2015, Plaintiff
filed an Amended Complaint. (Dkt. No. 4.) The instant Second Amended Complaint
was filed on June 18, 2015,'(Dkt. No. 6.) Pursuant to a Scheduling Order, (Dkt. No. 43),
Defendants filed their Motion and supporting papers on March 31, 2016, (Dkt. Nos. 44-46).
Plaintiff filed opposition papers on May 12, 2016. (Dkt. Nos. 47-48.) Defendants filed a
reply on June 3, 2016. (Dkt. No. 51.)

A

A

II. Discussion
A. Standard of Review
The Supreme Court has held that although a complaint “does not need detailed
factual allegations” to survive a motion to dismiss, “a plaintiff’s obligation to provide the
‘grounds’ of his [or her] ‘entitlement to relief requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause of action will not do.” Bell Atl. Corp
v. Twombly, 550 U.S. 544, 555 (2007) (alteration omitted). Instead, the Supreme Court
has emphasized that “ [factual allegations must be enough to raise a right to relief above
the speculative level,” id., and that “once a claim has been stated adequately, it may be
supported by showing any set of facts consistent with the allegations in the complaint,” id.
at 563. A plaintiff must allege “only enough facts to state a claim to relief that is plausible
on its face.” Id. at 570. But if a plaintiff has “not nudged [his or her] claims across the line
from conceivable to plausible, the [] complaint must be dismissed. Id,\ see also Ashcroft
v. Iqball, 556 U.S. 662, 679 (2009) (Determining whether a complaint states a plausible
claim for relief will... be a context-specific task that requires the reviewing court to draw
on its judicial experience and common sense. But where the well-pleaded facts do not
permit the court to infer more than the mere possibility of misconduct, the complaint has
alleged—but it has not ‘show[n]’—‘that the pleader is entitled to relief.’” (second alteration
in original) (citation omitted) (quoting Fed. R. Civ. P. 8(a)(2))).
For purposes of Defendants’ Motion, the Court is required to consider as true the
factual allegations contained in the Second Amended Complaint. See Ruotolo v. City of
New York, 514 F.3d 184,188 (2d Cir. 2008) (“We review de novo a district court’s dismissal
of a complaint pursuant to Rule 12 (b)(6), accepting all factual allegations in the complaint

and drawing all reasonable inferences in the plaintiff’s favor.” (internal quotation
marks and italics omitted)); Gonzalez v. Caballero, 572 F. Supp. 2d 463, 466 (S.D.N.Y.
2008) (same). “In adjudicating a Rule 12(b)(6) motion, a district court must confine its
consideration to facts stated on the face of the complaint, in documents appended to the
complaint or incorporated in the complaint by reference, and to matters of which judicial
notice may be taken.” Leonarad F. v. Isr. Disc. Bank ofN.Y., 199 F.3d 99, 107 (2d Cir. 1999)
(internal quotation marks omitted).
Because Plaintiff is proceeding pro se, the Court construes her “submissions
liberally” and interprets them “to raise the strongest arguments that they suggest.”
Triestman v. Fed. Bureau of Prisons, 470 F.3d 471, 474 (2d Cir. 2006) (internal quotation
marks omitted). Furthermore, it is appropriate to consider “materials outside the
complaint to the extent that they are consistent with the allegations in the complaint,
“ Alsaifullah v. Furco. No. 12-CV-2907, 2013 WL 3972514, at *4 n.3 (S.D.N.Y. Aug. 2,
2013) (internal quotation marks omitted), including “documents that a pro se litigant
attaches to his opposition papers,” Agu v. Rheu, No. 09-CV-4732, 2010 WL 5186839, at
*4 n.6 (E.D.N.Y. Dec. 15, 2010); see also Walker v. Schult, 717 F.3d 119,122 n.l (2d Cir.
2013) (noting that a court may consider “factual allegations made by a pro se party in his
papers opposing the motion” (italics omitted)); Rodriquez v. Rodriquez, No. 10-CV-891,
2013 WL 4779639, at *1 (S.D.N.Y. July 8, 2013) (“Although the [c] ourt is typically confined
to the allegations contained within the four corners of the complaint, when analyzing the
sufficiency of a pro se pleading, a court may consider factual allegations contained in a pro
se litigant’s opposition papers and other court filings.” (citation and internal quotation
marks omitted)).

B. Analysis
Defendants make four arguments in support of their Motion. First, they contend
that Plaintiff failed to exhaust her Title VII claim. They have attached the charge Plaintiff
submitted to the EEOC as evidence of her failure. (See Decl. of James A. Randazzo,
Esq., in Supp. of Defs.’ Mot. To Dismiss Ex. 2 (“EEOC Charge”) (Dkt. No. 45).) Second,
they argue that Plaintiff’s claims against the individual Defendants must be dismissed
because neither Title VII not the ADEA subjects individuals to personal liability. Third,
Defendants argue that the Motion should be granted because the School District had a
legitimate, nondiscriminatory reason for not hiring Plaintiff. Finally, they argue that
Plaintiff’s Education Law claim must be dismissed because Plaintiff did not serve the
School District with a notice of claim, as is required by statute.

1 .Exhaustion of Administrative Remedies
“A plaintiff may bring an employment discrimination action under Title VII or the
ADEA only after filing a timely charge with the EEOC or with ‘a State or local agency with
authority to grant or seek relief from such practice’” Holtz v. Rockefeller & Co., 258 F 3d
62, 82-83 (2d Cir. 2001) (quoting 42 U.S.C. § 2000e-5(e); see also 29 U.S.C. §§ 626(d), 633(b)
(provisions containing ADEA exhaustion requirement). “Exhaustion of administrative
remedies through the EEOC is an essential element of the Title VII and ADEA statutory
schemes and, as such, a precondition to bringing such claims into federal court.” Legnani
v. Alitalia LineeAeree Italiane, S.P A., 274 F 3d 683, 686 (2d Cir. 2001) (internal quotation
marks omitted). The Second Circuit has however, recognized that “claims... not asserted
before the EEOC may be pursued in a subsequent federal court action if they are

‘reasonably related’ to those that were filed with the agency.” Shah v. N.Y. State Dep’t of
Civil Serv., 168 F.3d 610, 614 (2d Cir. 1999). “A claim is considered reasonably related if
the conduct complained of would fall within the scope of the EEOC investigation which can
reasonably be expected to grow out of the charge that was made.” Fitzgerald v. Henderson,
251 F 3d 345, 359-60 (2d Cir 2001) (internal quotation marks omitted). The Second Circuit
has advised that the focus of the inquiry “should be on the factual allegations made in the
EEOC charge itself’ and whether they “’’gave that agency adequate notice to investigate”
the claims subsequently asserted in federal court. Williams v. N.Y.C. Hous. Auth., 458 F.3d
67, 70 (2d Cir. 2006) (per curiam) (alteration and internal quotation marks omitted).
“Defendants bear the burden of proving a failure to exhaust... .” Kane v. St.
Raymond’s Roman Catholic Church, No. 14-CV-7028, 2015 WL 4270757, at *5 (S.D.N.Y.
July 13, 2015), Courts therefore generally deny motions to dismiss for failure to exhaust
unless the failure “is clear from the face of the complaint.” Arnold v. Research Found
for State Univ. of N.Y., --F. Supp. 3d--, 2016 WL 6126314, at *8 (E.D.N.Y. Oct. 20, 2016).
However, on a motion to dismiss under Federal Rule of Civil Procedure 12(b)(6), the
Court may consider EEOC filings because “they are public documents” and are “integral
to Plaintiffs claims.” Morris v. David Lerner Assocs., 680 F. Supp. 2d 430, 436 (E.D.N.Y.
2010); see also Kouakou v. Fideliscare N.Y., 920 F. Supp. 2d 391, 394 n.l (S.D.N.Y. 2012)
(“Because the EEOC [c]harge is part of an administrative proceeding, the [c]ourt may take
judicial notice of it without converting [the] [defendant's motion into a motion for

’The “reasonably related” exception “is essentially an allowance of loose pleading and is based on the
recognition that EEOC charges frequently are filled out by employees without the benefit of counsel and that
their primary purpose is to alert the EEOC to the discrimination that a plaintiff claims [s]he is suffering.”
Devavin v. Kerik, 335 F.3d 195, 201 (2d Cir. 2003) (alteration and internal quotation marks omitted).

summary judgment/'), ‘ McLeod v. Lowe’s Home Improvement, Nos. 09-CV-834, 09-CV835, 2010 WL 4366901, at *2 n.2 (N.D.N.Y. Oct 28, 2010) (“On [a] Fed. R. Civ. P. 12 (b)
(6) motion, the [c]ourt may properly consider the EEOC charges and right-to-sue notices
because they are public documents in administrative proceedings and are integral to [the]
plaintiff’s claims.”).
Plaintiff filed a charge with the EEOC (“EEOC Charge”) in October 2014 alleging
that the School District discriminated against her on the basis of age (EEOC Charge
1.) She alleged that she went to a School District facility on May 16, 2014 and inquired
about open positions. A woman, who “appeared to be African-American,” showed her the
bulletin board where open positions were posted. (Id. at 2.) Plaintiff expressed interest in
an announcement for an Assistant Principal position at Copper Beech Middle School and
gave the employee helping her a copy of her resume. (Id.) The employee went back to an
office to determine whether Plaintiff was on the School District’s list of certified teachers.
(Id.) The employee was unable to locate Plaintiff on the list, rendering her ineligible for the
Assistant Principal position. Plaintiff insisted that she was certified and stated that she
would apply for the position anyway. (Id.) Plaintiff went home and called the Division of
teacher Certification in the New York State Department of Education to find out whether
she was listed on its website as being certified. (Id.) The person she spoke to allegedly
told her that she was listed on the website. (Id.)
Noticeably absent from these allegations is Plaintiff’s race or any indication that
the School District discriminated against her because of her race. The only claim asserted
in the EEOC Charge is age discrimination. (See EEOC Charge 1 (box checked for age
discrimination).) “Courts in the Second Circuit have generally held that claims alleging

discrimination based upon a protected classification which are different than the protected
classification asserted in administrative filings are not reasonably related.” Wilson v.
Southampton Hosp., No. 14-CV-5884, 2015 WL 512448, at * 11 (E.D.N.Y. Aug. 28, 2015)
(internal quotation marks omitted). Indeed, courts have consistently found that claims
of race discrimination are not reasonably related to age discrimination claims. See e.g.,
D’Amato v. Conn Bd. of Pardons & Paroles, No. 12-CV-249, 2013 WL 617047, at *4 (D.
Conn. Feb. 19, 2013) (holding that the plaintiffs Title VII claim was barred because it
was not reasonably related to the age and disability discrimination claims brought before
the EEOC); Pinkard v. N.Y.C. Dep’t ofEduc., No. ll-CV-5540, 2012 WL 1592520, at *8
(S.D.N.Y. May 2, 2012) (“Courts have consistently held that discrimination claims based
on age, sex, or disability are not reasonably related to claims based on race or color, and
vice versa.” (italics omitted)); James v. Fed Reserve Bank of NY., No. 01-CV-1106, 2005
WL 1889859, at *5 (E.D.N.Y. Aug. 8, 2005) (“[The] [p]laintiffs race discrimination claim
is not reasonably related to the disability, age, and gender discrimination charges she
raised before the EEOC.”), reconsideration granted, 471 F. Supp. 2d 226 (S.D.N.Y. 2007).
These decisions from the idea that a plaintiffs age discrimination claim is not “expected to
uncover discrimination related to race.” Kittrell v. Dep’t of Citywide Admin. Servs. Div. of
Pers., No, 10-CV-2606, 2013 WL 2395198, at * 7 (E.D.N.Y. May 31, 2013), affd, 561 F. App’x
30 (2d Cir. 2014). Plaintiff counters that she “exercised her liberty to broaden the charge
of discrimination which was originally based on age when filed” with the EEOC, (PL’s
Mem. of Law in Opp’n to Defs.’ Mot. (“PL’s Opp’n”) 7 (Dkt. No. 48)), but she has made no
attempt to demonstrate how her race discrimination claim is reasonably related to the age
discrimination claim brought before the EEOC. The Court thus concludes that Plaintiffs

race discrimination claim is not reasonably related to her age discrimination claim and
must be dismissed for failure to exhaust administrative remedies.
It is now too late for Plaintiff to exhaust her Title VII claim. See Roth v.
Farmingdale Pub. Sch. Dist, No. 14-CV-6668, 2016 WL 767986, at * 6 (E.D.N.Y. Feb. 26,
2016) (explaining that plaintiffs have 300 days from the discriminatory conduct to file
an administrative charge). Accordingly, Plaintiff’s Title VII race discrimination claim
is dismissed with prejudice. See Best v. Duane Reade Drugs, No. 14-CV-2648, 2014 WL
5810105, at *5 (S.D.N.Y. Nov. 6, 2014) (dismissing discrimination claim with prejudice
because it was ‘far too late” to exhaust administrative remedies).2

2. TheADEA
The ADEA provides in part that “[i]t shall be unlawful for an employer ... to fail or
refuse to hire ... any individual.. .because of such individual’s age.” 29 U.S.C. § 623 (a)
(1). The statute limits the class of persons protected by this prohibition “to individuals
who are at least 40 years of age.” Id. § 631(a). “To establish a prima facie case [of age
discrimination], a plaintiff... must show (1) that she was within the protected age group,
(2) that she was qualified for the position, (3) that she experienced adverse employment
action, and (4) that such action occurred under circumstances giving rise to an inference of

2 In her opposition papers, Plaintiff asserts that she was discriminated against on the basis of her
sex in violation of Title VII. (See Pl.’s Opp’n 3.) For substantially the same reasons stated above, this claim
is dismissed with prejudice because it was not raised before the EEOC, nor is it reasonably related to the age
discrimination claim that was. See Roth, 2016 WL 767986, at *6 (finding the plaintiffs sex discrimination
claim was not reasonably related to his claims that he was discriminated against on the basis of his age,
marital status, and arrest record).

discrimination.” Bucalo v. Shelter Island Union Free Sch. Dist., 691 F.3d 119, 129 (2d Cir.
2012) (internal quotation marks omitted).3
As to the third prima facie factor, “[i]n the context of a claim for discrimination
under the ADEA, ‘a plaintiff sustains an adverse employment action if he or she endures
a materially adverse change in terms and conditions of employment.” Visco v. Brentwood
Union Free Sch. Dist., 991 F. Supp. 2d 426, 436 (E.D.N.Y. 2014) (alternation and some
internal quotation marks omitted) (quotingKassner v. 2ndAve. Delicatessen Inc., 496 F.3d
229, 238 (2d Cir 2007)). “The Second Circuit has applied this definition broadly to include
discharge, refusal to hire, refusal to promote, demotion, reduction in pay, and reprimand.”
Graham v. Watertown City Sch. Dist., no. 10-CV-756, 2011WL 1344149, at *6 (N.D.N.Y.
Apr. 8, 2011) (internal quotation marks omitted).
As to the fourth prima facie factor, “[t]here are a variety of ways in which a plaintiff
can demonstrate that the adverse employment action took place under circumstances
giving rise to an inference of age discrimination.” Del Valle v. City of New York, No. 11CV-8148, 2013 WL 444763, at *4 (S.D.N.Y. Feb. 6, 2013). For example, an inference of age
discrimination may be raised where a plaintiff “alleges that she was within the protected
class, that she was rejected for a position, and that the position was filled by a person
significantly younger than her.”
Munoz-Nagel v. Guess, Inc., No. 12-CV-1312, 2013 WL 1809772, at *7 (S.D.N.Y. Apr.
30, 2013) (“Munoz-Nagel 1”) (collecting cases). “An age discrimination plaintiff may also

3 Ultimately, a plaintiff bringing an ADEA claim “must prove, by a preponderance of the evidence,
that age was the ‘but-for cause of the challenged adverse employment action.” Gross v. FBL Fin. Servs., Inc.,
557 U.S. 167,180 (2009),’

'

seek to rely on .. . comments or remarks evidencing ageist views, evidence that similarly
situated younger employees are treated more favorably than older ones, or statistical
evidence demonstrating a pattern of adverse employment actions taken against older
employees.” Del Valle, 2013 WL 444763, at *4 (citations omitted).
A “[p]laintiff need not make out a prima facie case at the pleading stage, and may
withstand a motion to dismiss by providing a short and plain statement of the claim that
shows that she is entitled to relief and that gives [the] [defendant fair notice of the age
discrimination claim and the grounds upon which it rests.” Munoz-Nagel v. Guess, Inc.,
No. 12-CV-1312, 2013 WL 6068597, at*l (S.D.N.Y. Nov. 15, 2013) (“Munoz-Nagel II”) (italics
omitted); see also Swierkiewicz v. Sorema N.A., 534 U.S. 506, 510-11 (2002) (“The prima
facie case [requirements are] ... an evidentiary standard, not a pleading requirement...
. This Court has never indicated that the requirements for establishing a prima facie case
... also apply to the pleading standard that plaintiffs must satisfy in order to survive
a motion to dismiss.”), Kurian u. Forest Hills Hosp., 962 F. Supp. 2d 460,468 (E.D.N.Y.
2 013) (“[T]he survival of a complaint in an employment discrimination case does not
rest on whether it contains specific facts establishing a prima facie case . ...” (internal
quotation marks omitted)); McManamon v. Shinseki, No. ll-CV-7610, 2013 WL 3466863,
at *6 (S.D.N.Y. July 10, 2013) (“[A]t th[e] pleading stage[, the plaintiff] is not required to
demonstrate every element of a prima facie cse of age discrimination.” (italics omitted)).
However, “[a]lthough a plaintiff need not plead facts to establish a prima facie case of
employment discrimination in order to survive a motion to dismiss,” courts nevertheless
“consider 0 the elements of a prima facie case in determining whether there is sufficient
factual matter in the complaint which, if true, give[s] [the] [d]efendantO fair notice of [the]

[plaintifffs] employment discrimination claims and the ground on which such claims rest.”
Holmes u. Air Line Pilots Ass’n. Int’l, 745 F. Supp. 2d 176,195 (E.D.N.Y. 2010) (italics and
internal quotation marks omitted); see also Sommersett v. City of New York, No. 09-CV-5916,
2011WL 2565301, at *5 (S.D.N.Y. June 28, 2011) (“Although [the pllaintiff need not allege
facts sufficient to make out a prima facie case for any of her discrimination claims in her
[c]omplaint, the elements thereof provide an outline of what is necessary to render her
claims for relief plausible.” (italics omitted(((); Barker v. UBS AG, No. 09-CV-2084, 2011 WL
283993, at *5 (D. Conn. Jan. 26, 2011) (“[E]ven though establishing a prima facie case of age
discrimination is not necessary to survive a motion to dismiss, courts do use the standard
as a guidepost when determining whether the plaintiff has provided the defendant with fair
notice of her claim, as required by the Federal Rules of Civil Procedure.”).
Significantly, individuals cannot be held liable for violations of the ADEA. See, e.g.,
Gindi v. Bennett, No. 15-CV-6475, 2016 WL3461233, at*3 (E.D.N.Y. June 20, 2016) (“[T]
he ADEA do[es] not permit the imposition of individual liability.”), reconsideration denied,
2017 WL 58833 (E.D.N.Y. Jan. 5, 2017). Therefore, Plaintiff cannot sue Defendants Stone,
Cosgrove, Herzog, Van Develde, Miccio, or Morningstar under the ADEA. This claim is
dismissed with prejudice insofar as it is based upon individual liability.
With respect to the viability of Plaintiff’s ADEA claim against the School District,
Plaintiff alleges that she is over 65 years old, that she is “duly qualified to be employed as
an [aldministrator within the school systems of the State of New York,” (SAC % 1), and that
she applied for an Assistant Principal position with the School District, (id. M 5,9), but
was not hired for the position. Instead, the School District hired someone “younger, lessexperienced [,] and less qualified.” (Pl.’s AfFn 3.) These allegations satisfy the elements of

*

a prima facie case. Plaintiff is a member of a protected class because she is over 40 years
of age, was allegedly qualified for the position to which she applied, was not hired despite
hre qualifications, and the person who was hired was allegedly younger and less qualified.
The claim that the person hired was allegedly less qualified than Plaintiff is sufficient
to create circumstances giving rise to an inference of discrimination. CF. Mattera v.
JP Morgan Chase Corp., 740 F. Supp. 2d 561, 573 (S.D.N.Y. 2010) (“The Second Circuit
has continuously held that an inference of discrimination arises for purposes of ADEA
defendants’ summary judgment motions, when an older qualified employee is replaced by
someone younger.”).4
Defendants have made little effort to dispute that Plaintiff has pled a prima facie
cae of discrimination. Instead, they argue: “Even assuming arguendo that Plaintiff has
sufficiently pled a prima facie case of race or age discrimination by alleging that she was
qualified for the positon and that the individual who was hired was white and younger,
Plaintiff has also pl[ed] the School District’s legitimate, nondiscriminatory reason for
not hiring her,” i.e., that she lacks a background in middle school education (Defs.’ Mem.
of Law in Supp. of Mot. To Dismiss (“Defs.’ Mem.”) 6 (Dkt. No. 46) (italics omitted).)
Defendants focus on the fact that Plaintiff alleges that she has “little or no middle school
experience.” (SAC 'll 15.) But Plaintiff’s statement does not alter Plaintiff’s allegation that
she was qualified for the Assistant Principal position and was overlooked for that position
under circumstances giving rise to an inference of discrimination. The Court’s task is to

4 Plaintiff submitted a series of documents in opposition to Defendants’ Motion. It appears that she
has included the resume and application of the individual hired for the Assistant Principal position. (See
Pl.’s Aff’„n ECF pages 57-64.) At this stage, the Court cannot rely on these documents to compare Plaintiff’s
qualifications to the qualifications of that individual, but one could question whether Plaintiff will ultimately
be able to establish that Defendants discriminated against her based on this document.

determine whether Plaintiff has “provide [ed] a short and plain statement of the claim
that shows that she is entitled to relief and that gives Defendant [s] fair notice of the
age discrimination claim and the grounds upon which it rests.” Munoz-Nagel II, 2013
WL 6068597, at* 1 (italics omitted). Plaintiff has done all that was required to defeat
Defendants’ Motion. While Defendants may believe they had a valid reason for not hiring
Plaintiff, and the evidence my substantiate that belief, that argument is best made in a
motion for summary judgment. Accordingly, Defendants’ Motion with respect to Plaintiff’s
ADEA claim is denied with respect to the School District.

3. Plaintiff’s State Law Discrimination Claims
In opposition to Defendants’ Motion, Plaintiff clarified that she is seeking relief under
the NYSHRL, in addition to the ADEA and Title VII because she was discriminated against
on the basis of her age, sex, and race. (See Pl.’s Opp’n 8.) Age discrimination claims brought
pursuant to the NYSHRL are analyzed identically to claims under the ADEA. See Brown v.
City of New York, No. 10-CV-3104, 2011 WL 6003921, at *6n.4 (S.D.N.Y. Nov. 30, 2011) (noting
that, “[t]o the extent that [the]plaintiff [sought] to invoke the NYSHRL,” the court would
“analyze D such allegations under the same ... framework” that it used for ADEA claims
(collecting cases )), afFd, 512F. App’x 29 (2d Cir. 2013); Dixon v. Int’l Fed’n of Accountants, No.
09-CV-2839, 2010 WL 424007, at*3 (S.D.N.Y. Apr. 9, 2010) 9) (Discrimination claims under ..
. [the] ADEA ... [and the] NYSHRL ... are analyzed identically ...” (collecting cases)), afFd
416 F. App’x 107 (2d Cir. 2011). Therefore, for the same reasons as stated above, Defendants’
Motion is denied insofar as it seeks to dismiss Plaintiffs NYSHRL, age discrimination claim
against the School District.

With respect to Plaintiff’s race and sex claims, unlike Title VII, “the NYSHRL contains
no requirement of exhaustion of administrative remedies.” Butler v. N.Y. Health & Racquet
Club, 768 F. Supp. 2d 516 (S.D.N.Y. 2011) (internal quotation marks omitted); see also
Lumhoo v. Home Depot USA. Inc., 229 F, Supp. 2d 121,136 n. 13 (E.D.N.Y. 2002) (“Unlike
Title VII, ... there is no requirement that [the] plaintiff exhaust administrative remedies
prior to commencing a claim under the NYSHRL.”), Plaintiffs allegations that she was
discriminated against on the basis of race and sex thus remain actionable under state law.
“Because NYSHRL claims are subject to the same standard as Title VII claims,” the Court
will analyze Plaintiffs claims as if they were brought pursuant to Title VII. Salazar v.
Ferrara Bros. Bldg. Materials Corp., No. 13-CV-3038, 2015 WL 1535698, at *5 (E.D.N.Y. Apr. 6,
2015).
“The substantive standards applicable to claims of employment discrimination under
Title VII... are ... well established.” Vivenzie v. City of Syracuse, 611 F.3d 98,106 (2d Cir
2010). To state a prima facie case of discrimination, a plaintiff “must show: (1) that [s]he
belonged to a protected class; (2) that [s]he was qualified for the position [s]he held; (3) that
[s]he suffered an adverse employment action; and (4) that the adverse employment action
occurred under circumstances giving rise to an inference of discriminatory intent.” Holcomb
v. Iona COll., 521 F.3d 130,138 (2d Cir. 2008). As with her ADEA claim, Plaintiff need not
allege a prima facie case to survive a motion to dismiss her sex and race discrimination
claims. See e.g., Swierkiewicz, 534 U.S. at 508. Rather, the Second Circuit has explained
that “what must be plausibly supported by facts alleged in the complaint is that the plaintiff
is a member of a protected class, was qualified, suffered an adverse employment action,
and has at least minimal support for the proposition that the employer was motivated by

discriminatory intent,” Littlejohn
v. City of New York, 795 F.3d 297, 311 (2d Cir. 2015). “The facts required ... to be alleged in
the complaint need not give plausible support to the ultimate question of whether the adverse
employment action was attributable to discrimination,” but rather the alleged facts ‘need
only give plausible support to a minimal inference of discriminatory motivation” Id.; see also
Vega v. Hempstead Union Free Sch. Dist., 801 F.3d 72, 87 (2d Cir. 2015) )”[A] plaintiff must
allege that the employer took adverse action against her at least in part for a discriminatory
reason, and she may do so by alleging facts that directly show discrimination or facts that
indirectly show discrimination by giving rise to a plausible inference of discrimination.”).
Courts making the plausibility determination must do so “mindful of the elusive nature of
intentional discrimination” and the concomitant frequency by which plaintiffs must “rely
on bits and pieces of information to support an inference of discrimination, i.e., a ‘mosaic’ of
intentional discrimination.” Vega, 803 F.3d at 86 (italics and some internal quotation marks
omitted) (quoting Gallagher v. Delaney, 139 F.3d 338, 342 (2d Cir. 1998)).
Plaintiff has plausibly pled race and sex based NYSHRL claims because she alleges
she is a member of protected classes, she was qualified for the Assistant Principal position,
but she was not hired for that position. Rather, the School District allegedly hired a lessqualified Caucasian male for the job. (Pl.’s AfFn 3.) For much the same reasons that
Plaintiff’s ADEA claim survives Defendants’ Motion, Plaintiff’s NYSHRL claims also survive
against the School District.
Unlike Plaintiff’s federal causes of action, the NYSHRL provides for “individual
liability in some circumstances.: Anyanwu v. City of New York, No. 10-CV-8498,2013 WL
5193990, at *22 (S.D.N.Y. Sept. 16,2013). “A supervisor may be subject to personal liability

under §296(1) of the NYSHRL where such individual has been deemed an‘employer’for
the purposes of the NYSHRL.: Maher v. All. Mortg. Banking Corp., 650 F. Supp. 2d 249,
260 (E.D.N.Y. 2009); see also N.Y. Exec. Law § 296(1). A supervisor may be considered an
“employer” where it is shown that he has “an ownership interest or any power to do more
than carry out personnel decisions made by others,” such as the power to hire and fire
employees. Pellegrini v. Sovereign Hotels, Inc., 740 F. Supp. 2d 344, 355 (N.D.N.Y, 2010)
(internal quotation marks omitted).
Likewise, under § 296(6) of the NYSHRL, an individual defendant may be held
personally liable where he aids and abets discrimination. See N.Y. Exec. Law 296(6) (“It shall
be an unlawful discriminatory practice for any person to aid, abet, incite, compel [,] or coerce
the doing of any of the acts forbidden under the article or attempt to do so”); see also Maher,
650 F. Supp. 2d at 260 (“An individual defendant may be personally liable for discrimination
under the aid-or-abet provision of the NYSHRL”). The Second Circuit has interpreted the
language of § 296(6) “to mean that a defendant who actually participates in the conduct giving
rise to a discrimination claim may be personally liable as an aider and abettor.” Perks v. Town
of Huntington, 251 F. Supp. 2d 1143,1160 (E.D.N.Y. 2003) (internal quotation marks omitted).
Plaintiff, however, has not alleged what role, if any, the individually named defendants
played in the conduct about which she complains. There is thus no basis to hold any of
the individually named Defendants liable as aiders and abettors under § 296(6) It may
be that some Defendants possess the power to hire and fire employees, but it is not clear
which Defendants possess that authority—whether it be some or all of them—or whether
they exercised it in this case. Indeed, there is not even a single allegation that any of the
individual Defendants participated in the conduct giving rise to this Action. They are all

named in the caption of the Complaint, but nowhere else does Plaintiff describe their role.
See Dargan v. Heath, No. 10-CV-7360, 2011WL 1795814, at *4 (S.D.N.Y. May 4, 2011 (“It
is well-settled that where the complaint names a defendant in the caption but contains no
allegations indicating how the defendant violated the law or injured the plaintiff, a motion
to dismiss the complaint in regard to that defendant should be granted.” (internal quotation
marks omitted)). Therefore, the Court dismisses Plaintiffs NYSHRL claims aginst the
individually named Defendants without prejudice.
In sum, Plaintiffs age, race, and sex based NYSHRL claims may proceed against the
School District. Those claims are dismissed without prejudice insofar as they are brought
against the individually named Defendants, because Plaintiff has not pled that they were
personally involved in the allegedly discriminatory conduct or identified which Defendants
possess the power to hire and fire.

4. Plaintiffs Other Claims
a. NYCHRL Claim
In her opposition papers, Plaintiff contends that she is seeking relief under the
NYCHRL (Pl.’s Opp’n 8.) “To state a claim under the NYCHRL, [a] [p]laintiff must allege
that the [defendant discriminated against her within the boundaries of New York City.”
Robles v. Cox & Co., 841 F. Supp. 2d 615, 623 (E.D.N.Y> 2012) (internal quotation marks
omitted); see also Fried v. LVI Servs., Inc., No. 10-CV-9308, 2011 WL 4633985, at* 12
(S.D.N.Y. Oct. 4, 2011) (“The NYCHRL expressly limits the applicability of its protections
to acts that occur within the boundaries of New York City”), affd, 500F. App’x 39 (2d Cir.
2012). Plaintiff has not and cannot allege that she was discriminated against within the

*

boundaries of New York City because the School District is located in Shub Oak, New
York, and Plaintiff resided in Cortlandt Manor, New York. (See SAC HU 1, 6.) Accordingly,
Plaintiff’s NYCHRL claim is dismissed with prejudice as an amended pleading cannot
remedy this deficiency.

b. New York Education Law Claim
Plaintiff alleges that Defendants violated the New York State Education Law by
drafting the Assistant Principal vacancy announcement such that it gave preferential
treatment to younger and non-minority applicants. (See id. H18.) Defendants argues that
this cause of action musts be dismissed because Plaintiff failed to serve a notice of claim
on the School District. (Defs.’ Mem. 7.)
As relevant here, Education Law § 3813(1) provides:

No action or special proceeding, for any cause
whatever,... shall be prosecuted or maintained
against any school district, board of education,... or
maintained against any school district board of
education,... or any officer of a school district, [or]
board of education . . . unless it shall appear by and
as an allegation in the complaint or necessary
moving papers that a written verified claim upon
which such action or special proceeding is founded
was presented to the governing body or said district
or school within three months after the accrual of
such claim.

See also Marino v. Chester Union Free Sch. Dist., 859 F Supp. 2d 566, 570 (S.D.N.Y. 2012)
(“Section 3813(1) of [the] New York State Education Law provides that no action may be
maintained against a school district unless notice of claim was served within three months
of the date on which the claim accrued.”)- It is well settled in the Second Circuit “that
Education Law § 3813(1) is a statutory condition precedent to a petitioner’s bringing of a
proceeding against a school district or board of education, and a petitioner’s failure to comply
is a fatal defect mandating dismissal of the action.” Carlson v. Geneva City Sch. Dist., 679
F. Supp. 2d 355, 366 (W.D.N.Y. 2010) (internal quotation marks omitted). It is Plaintiff's
burden to plead compliance with § 3818(l)’s requirements. See Thomas v.N.Y.C. Dep’t of
Educ., 938 F. Supp. 2d 334,360 (E.D.N.Y. 2013) (’’[Section 3813(1)] specifically requires a
plaintiff to plead compliance with § 3813(l)’s notice of claim requirements.”)
Plaintiff has not pled that she served the School District with a notice of claim.
Accordingly, her Education Law claim is dismissed without prejudice as she may be able to
allege that she did satisfy this requirement in an amended pleading. See Birkholz v. City
of New York, No. 10-CV-4719, 2012 WL 580522, at *15 (E.D.N.Y. Feb. 22, 2012) (directing
the plaintiff to file an amended complaint alleging that he “strictly complied with the
requirements of New York Education Law § 3813(1)”).5

c. 42 U.S.C. $ 1983 Claim
In her opposition papers, Plaintiff insinuates that Defendants have in place a
discriminatory hiring practice that goes beyond the events that occurred in May 2014.

5 Curiously, Defendants only make this argument with respect to Plaintiff’s Education Law claim.
The Court assumes that Plaintiff satisfied the notice of claim requirements with respect to her other statelaw causes of action.

-

She contends she has been consistently discriminated against on prior occasions. (Pl.’s
Opp’n 2.) When she has gone to the School District’s office in the past, employees
discouraged her from applying for vacant positions and informed her that her credentials
were not contained in the School District’s database, rendering her ineligible for the
positions, (id.) Plaintiff notes that this discrimination occurs only when she seeks to apply
for an administrative position. Whenever she inquired about substitute teaching positions,
School District employees were able to locate her credentials. (Id. At 6-7.) Plaintiff
speculates that the School District’s employees adopted this practice so Plaintiff would
be relegated to low-paying jobs. (id. At 7.) The Court construes these allegations as an
attempt to bring a claim pursuant to 42 U.S.C. § 1983 against the individual Defendants
for a violation of the Equal Protection Clause of the Fourteenth Amendment.6 In order to
establish individual liability under § 1983, a plaintiff must show (a) that the defendant is a
‘person’ acting ‘under the color of state law,; and (b) that the defendant caused the plaintiff
to be deprived of a federal right.” Back v. Hastings on Hudson Union Free Sch. Dist., 365 F.
3d 107,122 (2d Cir. 2004). “In this Circuit personal involvement of defendants in alleged
constitutional deprivations is a prerequisite to an award of damages under [§] 1983.”

6 It is possible that Plaintiff also sought to assert a § 1983 claim against the School District for this
same conduct because she alludes to the fact that this conduct “indicates a discriminatory hiring policy in
violation of the law.” (Pl.’s Opp’n2.) “[T]o prevail on a claim against a municipality under [§] 1983 based on
acts of a public official, a plaintiff is required to prove (1) actions taken under color of law; (2) deprivation of a
constitutional or statutory right; (3) causation; (4) damages; and (5) that an official policy of the municipality
caused the constitutional injury.” Roe v. City ofWaterbury, 542 F 3d 31m 36 (2d'Cir. 2008). Plaintiff’s papers,
however, contain only a conclusory allegation that the School District employees were acting pursuant to an
official School District policy. This claim is therefore dismissed without prejudice. See Masciotta v. Clarkstown
Cent. Sch. Dist., 136 F. Supp. 3d 527, 546 (S.D.N.Y. 2015) (“[T]o survive a motion to dismiss, [a] [pjlaintiff
cannot, through conclusory allegations, merely assert the existence of a municipal policy or custom, but must
allege facts tending to support, at least circumstantially, an inference that such a municipal policy or custom
exists.” (internal quotation marks omitted)); Salvatierra v. Connolly, No. 09-CV-3722,2010 WL 5480756, at *10
(S.D.N.Y. Sept. 1, 2010) (dismissing claim against municipal agencies where the plaintiff do not allege that any
policy or custom caused the deprivation of his rights), adopted by 2011 WL 9398 (S.D.N.Y. Jan. 3, 2011).

McKinnon v. Patterson, 568 F.2d 930, 934 (2d Cir. 1977). A plaintiff seeking to hold
a supervisory employee liable under §1983 may satisfy the personal involvement
requirement by alleging:

(1) The defendant participated directly in the alleged
constitutional violation, (2) the defendant, after being
informed of the violation through a report or appeal,
failed to remedy the wrong, (3) the defendant
created a policy or custom under which
unconstitutional practices occurred, or allowed the
continuance of such a policy or custom, (4)
the defendant was grossly negligent in supervising
subordinates who committed the wrongful acts, or (5)
the defendant exhibited deliberate indifference to the
rights of inmates by failing to act on information
indicating that unconstitutional acts were occurring.

Colon v. Coughlin, 58 F.3d 865, 873 (2d Cir. 1995). It is an open issue in this Circuit
as to whether all five of these factors survived the Supreme Court’s decision in Iqbal,
see, e.g., Doe v. New York, 97 F. Supp. 3d 5,11-12 (E.D.N.Y. 2015), but, the Court will
assume for purposes of this Opinion that all five remain valid, see Phillip v. Schriro,
No. 12-CV-8349, 2014 WL 4184816, at *4 (S.D.N.Y. Aug. 22, 2014) (“[UJnless or until
the Second Circuit or Supreme Court rule otherwise, this [c]ourt agrees with the courts

*

that have held that the Colon factors still apply as long as they are consistent with
the requirements applicable to the particular constitutional provision alleged to have
been violated.” (internal quotation marks omitted)))0, Here, however, Plaintiff has not
alleged the personal involvement of any of the individual Defendants named in this
Action. She alleges only that certain unidentified School District employees discouraged
her from applying for open positions and were unable to locate her teaching credentials.
Without alleging tht the Defendants named herein were personally involved with this
purportedly discriminatory practice, Plaintiff cannot state a claim pursuant to § 1983.
See, e.g., Walls u. Fischer, 615 F. Supp. 2d 75, 78 (W.D.N.Y. 2009) (dismissing § 1983)
claim where the plaintiff failed to alleged that the individually named defendants were
personally involved in the alleged constitutional violation). Therefore, to the extent
Plaintiff was attempting to raise such a claim, it is dismissed without prejudice.

III. Conclusion
In light of the foregoing analysis, the Court grants Defendants’ Motion To Dismiss
in part and denies it in part. Plaintiff 's ADEA and age, race, and sex based NYSHRL
claims may proceed against the School District. All other claims are dismissed; some
with prejudice and some without, as discussed above. Plaintiff may file a Third Amended
Complaint, addressing the deficiencies outlined in this Opinion with respect to the
claims that have been dismissed without prejudice, within 30 days of the date of this
Opinion. Plaintiff otherwise risks dismissal of those claims with prejudice. If Plaintiff
does not file an amended pleading, the School District shall file an Answer within 60
days from the date of this Opinion. The Clerk of Court is directed to terminate the

pending Motion. (Dkt. No. 44.)
SO ORDERED.

DATED:

March 30, 2017
White Plains, New York
s/Kenneth M. Karas
Kenneth M. Karas
UNITED STATES DISTRICT JUDGE

Appendix G

EEOC Form 161 (11/09)
U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION

DISMISSAL AND NOTICE OF RIGHTS

To:

Annette Shands

From: Boston Area Office

27 Winthrop Drive

John F. Kennedy Fed Bldg

Cortlandt Manor,

Government Ctr, Room 475

NY 10567

Boston, MA 02203

□ On behalf of person(s) aggrieved whose identity is
CONFIDENTIAL
(29 CFR§1606.7(a))

EEOC Charge No.: 520-2014-02948

EEOC Representative: Edward J. Ostolski, Investigator

Telephone No.: (617) 565-3214

Appendix G

THE EEOC IS CLOSING ITS FILE ON THIS CHARGE FOR THE FOLLOWING
REASON:

□ The facts alleged in the charge fail to state a claim
under any of the tatutes enforced by the EEOC.
□ Your allegations did not involve a disability as
defined by the Americans With Disabilities Act.
□ The Respondent employs less than the required
number of employees or is not otherwise covered by
the statutes.
□ Your charge was not timely filed with EEOC; in other
words, you waited too long after the date(s) of the
alleged discrimination to file your charge
□ The EEOC issues the following determination:
Based upon its investigation, the EEOC is unable
to conclude that the information obtained established
violations of the statutes. This does not certify
that the respondent is in compliance with the
statutes. No finding is made as to any other issues
that might be considered as having been raised by this charge.
□ The EEOC has adopted the findings of the state or
local fair employment practices agency that investigated this charge.
□ Over (briefly state)

- NOTICE OF SUIT RIGHTS (See the additional information attached to this form.)

Title VII, the Americans with Disabilities Act, the Genetic Information
Nondiscrimination Act, or the Age Discrimination in Employment Act: This will
be the only notice of dismissal and of your right to sue that we will send you. You may
file a lawsuit against the respondent(s) under federal law based on this charge in federal
or state court. Your lawsuit must be filed WITHIN 90 DAYS of your receipt of this
notice, or your right to sue based on this charge will be lost. (The time limit for filing suit
based on a claim under state law may be different.)

Equal Pay Act (EPA): EPA suits must be filed in federal or state court within 2 years (3
years for willful violations) of the alleged EPA underpayment. This means that backpay
due for any violations that occurred more than 2 years (3 years) before you file suit
mav not be collectible.
On behalf of the Commission
“sr

Enclosure(s)

Feng K. Ah,

Feng K. Ah
Steven M. Latino, Esq.
SHAW, PERELSON, MAY
& LAMBERT, LLP
21 Van Wagner
Road Poughkeepsie, NY 12603

FEB 26 2015

Appendix H

LAKELAND SCHOOL DISTRICT
On Friday, May 16, 2014,1 arrived at 1086 East Main Street in Shrub Oak,
New York; it was after 1:30pm. Two young men were in the reception area filling out
applications. I believe they were seeking maintenance positions, perhaps even summer
maintenance positions.
I approached the receptionist and told her I would like to know if there were any
jobs available. She called the Office of Human Resources. A young woman came to
assist me. She appeared to be African-American. I asked her if there were any open
positions. We walked together outside of the reception area, to the bulletin board where
positions were posted. We found an announcement for an Assistant Principal at the
Copper Beech Middle School. She told me that they might be closing that position today.
I told her I would be interested in the position and I gave her a copy of my resume. She
took it and went back to the office to speak with someone to see if I was listed in their
listing of certified persons. She returned and told me she was sorry that I was not listed
on their site and would not be considered for the position. I asked her had she checked
under my maiden name and my married name. I was informed that she had someone
to check under both names and I was not listed. I informed her that I did indeed have
permanent certification and I would send or bring in a copy as proof of certification. She
told me rather emphatically that if I was not listed on their site, it did not matter, for
I would not be considered for the position. She said that perhaps I was mistaken and
maybe I had been certified provisionally rather than permanently. I asked her to give

Appendix H

4

me a copy of the posting and said that I would apply anyway. She did give me a copy of
the announcement, but indicated by her stance and demeanor that my doing so would
probably be in vain.
I went home and called the Division of Teacher Certification in the New York State
Department of Education to find out if I was listed on their website as being certified in
the State of New York, I was told that I was. I inquired as to why I was just told that
I was not listed by a school district when I went to apply for a position. I was asked if
I had applied at a public school or a private school. I said it was a public school. The
person on the phone responded by saying that pubic school districts in New York State
should have a data base called “Teach” which would include persons who were certified
prior to 2000 or 2001. He told me I was listed there as well. I inquired as to how to find
myself listed without using my social security number. He informed me how to do so and
I was successful in my search. However, the Lakeland Central School District employee
told me that its search for my certification was not successful.
I do believe that the conversation was recorded. I also made a second call to the
New York State Education department that same day. That second call in not the one
above which I am referencing.
s/Annette Oliver Shands subscribed and sworn to before me this __7__day of Oct.,
2014.

s/ Javutha Ramesh
Kavitha Ramesh
s/ Annette Oliver Shands

Appendix I

December 11, 2014
BY OVERNIGHT MAIL
Judy Keenan
Deputy Director
U.S.EEOC
New York District Office
33 Whitehall Street, 5th Floor
New York, NY 10004-2112

Re: STATEMENT OF POSITION IN OPPOSITION TO
THE CHARGE OF DISCRIMINATION
Annette Shands v. Lakeland Central School District
Federal Charge No. 520-2014-02948

Dear Ms. Keenan:
This firm represents the Lakeland Central School District (the “District”) in
the above-referenced matter. We write in response to the above-referenced Charge of
Discrimination (hereinafter collectively referred to as the “Charge”)1 filed by Annette
Shands (the “Charging Party”).2 The District denies each and every
allegation of discrimination alleged in the Charge

Appendix I

1. The Charge is attached as Exhibit A.
2. The information provided herein, as well as all further submissions,
if any, are strictly confidential and are to be used only for the determination
of the Charge. Any information and documentation so provided are not to be
communicated to anyone without the prior written approval of the undersigned
counsel for the District. Further, the fact that the District has asserted
certain defenses herein shall not constitute a waiver of any or all of its other
defenses.
Judy Keenan
Deputy Director
Annette Shands v. Lakeland CSD
Federal Charge No. 520-2014-02948

and submits the following Statement of Position as its response thereto.

RESPONDENT’S ANSWER TO THE ALLEGATIONS IN THE CHARGE

This Respondent submits this response in duplicate to the paragraphs in the
“Charge” and denies any and all allegations of discrimination and retaliation:
1. Denies the allegations set forth in the unnumbered paragraph of the
“Particulars” of the Charge except denies knowledge or information sufficient to form a
belief as to the truth of the allegation that the Charging Party went to the District on or
about May 16, 2014 and inquired about open positions, except admits that the Charging

Party did submit a paper application for the apply for a position with the District as an
Assistant Principal at the Middle School and that such application was submitted prior to
the May 23, 2014 posting deadline. The District further admits that it sent the Charging
Party its standard letter when it receives unsolicited paper resumes, and that said letter
states that applicants are required to submit an on-line application through the OLAS,
and that the District, in the interest of fairness, is unable to process paper applications.
The District further admits that it sent the Charging Party a letter on July 8, 2014 stating
that the District had sent to her, its general response to all unsolicited paper resumes.
2. Denies knowledge or information sufficient to form a belief as to the truth of the
allegations set forth in the first paragraph of the unnumbered attachment to the Charge.
3. Denies knowledge or information sufficient to form a belief as to the truth of
the allegations set forth in the second paragraph of the unnumbered attachment to the
Charge, except admits that the Charging Party submitted her paper resume to the District
in May 2014 and that the Charging Party was provided with a copy of the announcement
for the Middle School Principal position, that stated that an online application was
required through OLAS that had to be submitted online by May 23, 2014.
4. Denies knowledge or information efficient to form a belief as to the truth of the
allegations set forth in the third paragraph of the unnumbered attachment to the Charge
except admits that the Charging Party has permanent certification as a school district
administrator.

Judy Keenan
Deputy Director

Annette Shands v. Lakeland CSD
Federal Charge No. 520-2014-02948
December 11, 2014

WHEREFORE, Respondent respectfully request that the Charge be dismissed in its
entirety and that the Respondent is granted such other and further relief as the EEOC
may deem just and proper.

STATEMENT OF MATERIAL FACTS

The Lakeland Cenral School District is a public school district located in Shrub Oak,
New York (Westchester County), As a public school district, it is a governmental agency,
and a public employer.
Charging Party submitted an application to work for the District in or about the
middle of May 2014, presumably for the position of Assistant Principal at the Lakeland
Copper Beach Middle School. However, the Charging Party attached to her resume, a
cover letter for the position of Substitute Teacher, dated November 19, 2008, which is
attached hereto at Exhibit B. This mistake was a careless error which was not a positive
reflection on her candidacy as a potential District Administrator. Furthermore, Charging
Party also erroneously listed on her OLAS on line application dated May 28, 2014, that
the District was her current employer and that she held the position of substitute. This
was another error that reflected negatively on her application as the Complainant does not
work for the District as a substitute teacher.

Charging Party submitted her application with the On-Line Application System for
Educators (OLAS). See Exhibit B attached. The job posting which Charging Party admits
that she was provided with, clearly states that an online application is required at www.
olasjobs.org/lhv and had to be submitted no later than May 23, 2014.3
Mr. Francesco A. Ruolo was selected for the position over the Charging Party based
upon his experience relative to the District’s established, non-discriminatory
qualifications for the position.
Under qualifications, the posting for the Middle School Assistant Principal position
that the Charging Party applied for clearly states the following:
• A dynamic, high energy leadership style with a successful background in middle
school education.

Judy Keenan
Deputy Director
Annette Shands v. Lakeland CSD
Federal Charge No. 520-2014-02948
December 11, 2014
• A thorough understanding of the Common Core Learning Standards.
• Comprehensive knowledge of middle school curriculum and instructional
methodology including differentiation.
• Ability to communicate effectively with excellent writing and public speaking skills.

'Upon information and belief the deadline to submit the online application for the potion that
Charging Party applied for was extended beyond May 23, 2014 and hus, Charging Party’s application was
not rejected by the District even though it was submitted after May 23, 2014.

• Habits of administration capable of encouraging professional cooperation and
enthusiasm to meet current demands for excellence in public education.

See exhibit B.

Charging Party’s resume fails to demonstrate any experience as a middle school
administrator or that she has any knowledge of Common Core Learning Standards or
middle school curriculum and instructional methodology. See Exhibit C attached hereto.
Charging Party’s most recent experience working in a public school district consists of
six months experience (January 1,1993 to July 1, 1993, and an Administrative intern
for the Greenburgh-Graham Union Free School District, a Special Act School District
in Hastings on Hudson, nearly twenty year prior to the creation of the Common Core
Learning Standards. Charging Party’s current employment, which she has held for
twenty-one years is as a member of the Ministerial Staff of the Bethel A.M.E. Church,
not a public sector middle school administration or middle school curriculum writing and
development.
Instead of Charging Party the District hired Francesco A. Ruolo. See Exhibit
D. At the time of his application, Mr. Ruolo had a total of four years of experience as
a Middle School Assistant Principal in grades 6-8 in the Yonkers Public Schools. See
Exhibit D. He also served two years as an Assistant Principal for Grades 3-5 in the
Yonkers Public Schools. See Exhibit D. Thus, he has six years of experience as an
Assistant Principal compared to Charging Party who has no experience as an Assistant
Principal in any setting. His resume demonstrates that in 2011, while serving as an

‘

Administrator in Charge, that he “created curriculum aligned with state standards.
It also establishes that as a Middle School Assistant Principal he assisted in leading
a school-wide effort to become a data driven school, and evaluated teachers based on
the State’s new Annual Professional Performance Review (APPR). He has devised
Middle School master schedules to maximize math and literacy, and coordinated the
administration of New York State Assessments in Math and Science among other
statewide testing. Mr. Ruolo also had eight years’ experience as a public school teacher
just prior to his becoming an Assistant Principal. Mr. Ruolo also has a thorough
understanding of Common Core Learning Standards.
Thus, the decision to hire Mr. Ruolo over Charging Party was based upon
his superior qualifications for this particular position. He possessed the specific
qualifications, experience and skill set that the District was seeking in a Middle School
Assistant Principal. Thus, there is no evidence at all that Charging Party’s age was a
factor in the decision making process for the Middle School Assistant Principal position
that Charging Party was seeking with the District and Charging Party certainly has not
demonstrated that but for Charging Party’s age she would have been selected for the
position over, Mr. Ruolo.

ARGUMENT

Charging Party Cannot Establish a Prima Facie Case of Age
Di scrimination.
Charging Party’s age discrimination claims still fail as a matter of law. In order to
establish a prima facie case of age discrimination under the NYSHRL or the ADEA, the
Charging Party must show that age, was the “but-for” cause of the challenged employer
decision. See Gross v. FBL, Financial Services, Inc., 129 S.Ct. 2343, 2350 (2009)(The
Supreme Court of the United Sates held “[t]o establish a disparate treatment claim
under the plain language of the ADEA, therefore, a plaintiff must prove that age was
the but-for cause of the employer’s adverse decision.. . [and that] the plaintiff retains
the burden of persuasion . . . [and] must prove by a preponderance of the evidence
(which may be direct or circumstantial), that age was the but-for cause of the challenged
employer decision”).
In this case, Charging Party cannot establish that age was the “but for” reason for
the District’s decision not to hire her for the Middle School Assistant Principal position
that she applied for with the District. As set forth above, the District had valid, nondiscriminatory reasons for its decisions to hire Mr. Ruolo instead of the Charging Party.
Mr. Ruolo was more qualified, having served six years as an assistant principal in a
New York State Public School, with four of those years as a Middle School Assistant
Principal. Charging Party has never worked a day as an Assistant Principal, and did
not demonstrate through her resume that she had any of the experience that the District
was specifically looking for in a candidate. She failed to demonstrate any experience in

•

the development of middle school curriculum or in Common Core Learning Standards.
Indeed, Charging Party, unlike the District’s chosen candidate, Mr. Ruolo, has never
served as Middle School Assistant Principal or even a paid Public School District
Administrator. See Exhibit B.
In addition to her lack of experience as a Middle School Administrator, as set
forth above, Charging Party submitted a cover letter for a position of substitute teacher
and attached that to her resume for the Middle School Assistant Principal position.
Moreover, on her OLAS application, the Charging Party erroneously listed the District
as her “Current Employer” even though she does not work for the District as a substitute
teacher. These two errors were an indication of her lack of attention to detail and were
not looked upon favorably by the District.
Thus, Charging Party’s baseless conclusion that she was not hired for the position
because of her age is not evidence of age discrimination. Conclusive allegations, without
more, are not evidence of discrimination. Forysth v. Federation Employment and
Guidance Service, 409 F.3d 565, 574 (2d. Cir. 2005) (Charging Party’s own conclusory
allegations that discrimination was present without more is not sufficient to establish
a prima facie case of discrimination) citing McDonnel Douglas Corp. v. Green, 411 U.S.
792, 802 (1973); Ottaviant v. State University ofN.Y. at New Paltz, 875 F.2d 365, 370
(2d Cir. 1989). See Heffernan v. Colonie Country Club, Inc., 160 A.D.2d 1062,1063, 553
N.Y.S.2d 544, 545 (3d Dep’t 1990) (holding that the plaintiff’s conclusory statement
that age was the determining factor in the decision to terminate his employment was
insufficient to create a question of fact and defeat summary judgment). Kelderhouse v.
St. Cabrini Home, 259 A.D.2d 938, 939, 686 N.Y.S. 2d 914, 915 (3d Dep’t 1999) (holding

that Plaintiff’s conclusory statements that he was replaced with someone twenty years
his junior and that he “steadfastly believefs] he was terminated because of his age” were
insufficient to create a question of fact and defeat summary judgment against Plaintiff).
Accordingly, for all of the reasons, set forth herein: 1) Charging Party’s admitted
lack of experience as a public school administrator; (2) Charging Party’s lack of
experience as a middle school administrator or middle school teacher, and (3) her
lack of experience with respect to Common Core, Charging Party was not selected
for the position of Middle School Assistant Principal. Instead, the District hired a
more qualified candidate who had six year experience as an Assistant Principal in
the public school system in New York State, with four of those years of experience as
a Middle school Assistant Principal. Thus, Charging Party cannot establish that the
District discriminated against her on the basis of her age when it selected Francesco
A. Ruolo for the position of Middle School Assistant Principal over her. Mr. Ruolo has
significantly more experience working as a Middle School Assistant Principal and an
Assistant Principal generally than the Charaging Party does. Thus, the Charge should
be dismissed as a matter of law, as the District’s reasons for not selecting her for the
position of Middle School Assistant Principal were due to the District selecting an
individual for the position who met their legitimate, non-discriminatory qualifications
for the position and who was clearly more qualified than she was.

VERIFICATION
STATE OF NEW YORK))’

SS.:COUNTY OF WESTCHESTER)

DR. TAMMY COSGROVE, being sworn says:
1.1 am the Assistant Superintendent of Human Resources of the Lakeland Central
School District, a Respondent in the action herein.
2.1 have read the annexed STATEMENT OF POSITION IN OPPOSITION TO THE
CHARGE OF DISCRIMINAITON, filed in opposition to the Charge of Discrimination filed
by Annette Shands, know the contents thereof and the same are true to my knowledge,
except those matters which are stated to be alleged on information and belief, and as to
those matters I believe them to be true. My belief as to those matters therein not stated
upon knowledge, is based upon the books, records and other documents maintained by the
School District.

s/ T. Cosgrove.
Dr. TAMMY COSGROVE
Sworn to before me this__11__day of December, 2014
s/ Andrea I. Gellen
Andrea I. Gellen, Esq.
Notary Public, State of New York
Qualified in Dutchess County
Reg. No. 02GE6298314
Expiration Date: 03/10/2013

Appendix J

LAKELAND CENTRAL SCHOOL DISTRICT
CENTRAL ADMINISTRATION
Educating Today for a Better Tomorrow

Dr. George E. Stone
Superintendent

Reginald E. Morningstar, Jr.
Assistant Superintendent of Business

Jean Miccio
Assistant Superintendent for Instruction

Dr. Tammy Cosgrove
Assistant Superintend for Human Resources

MaryEllen Herzog
Assistant Superintendent for Pupil Personnel

Jim Van Develde
Director of Communications
Appendix J

July 2, 2014

Annette Shands
27 Winthrop Drive
Cortlandt Manor, NY 10567

Dear Ms. Shands:
Thank you for your interest in a position with Lakeland Central School District. Please
be advised that our district requires teaching certification for all of our teaching positions.
In order to be considered for a teaching position with our district, current valid NYS
certification and on-line application through the BOCES on-Line Application System
(OLAS) are required.
We post all of our vacancies for teachers and teaching assistants on OLAS. We
encourage you to visit the online system to submit your application and resume, and to
review job vacancy listings. To apply for a position online, please visit http://www.olasjobs.
org/lhv/ and ensure that all information fields are completed, attach a copy of your resume
as a Word file, and then apply for the specific position(s) you are seeking. Please be
advised that the OLAS system is the only application method utilized by this district for
certified positions. In the interest of fairness, we are unable to process paper applications.
If there is a vacancy posted, once the posting has closed, applicants whose qualifications
most closely meet district needs will be contacted by the appropriate department or
building for an interview appointment. Our best wishes to you in your career endeavors.

Again, we sincerely thank you for your interest in the Lakeland Central School District.

The Human Resources Department
Lakeland Central School District
1086 East Main Street - Shrub Oak, New York 10588
Tel: 914-245-1700 - Fax; 914-245-4391
www.Lakelandschools.org

Appendix K
>>

Jobs Applied Annette Oliver/Shands
From: olasadmin <olasadmin@pnwboces.org>
To: AShands AShands@aol.com
Subject: Jobs Applied Annette Oliver/Shands
Date: Tue. May 20, 2014 7:09 pm

Dear Annette Oliver/Shands,
Thank you for applying through the Lower Hudson Valley Region Online
Application System for Educator(s)
The districts you have applied to will contact you if you are to be scheduled for a
personal interview.
You applied to the following jobs:

Job Number: LAKV00651980056
District: Lakeland
Job Title: Assistant Principal - Middle School
Applied Date: 5/20/2014 - 7:09:07

You have chosen to allow all districts to view your application.
You have blocked Pearl River School District from viewing your application.
Please note that you can re-enter this system and upload job-specific cover letters
Appendix K

for each job to which you have applied. Click “Manage My Jobs.”
We appreciate receiving your application and wish you success in your job search.

Sincerely,
System Administrator
The Lower Hudson Valley Region On-line Application System for Educators.

Copyright 72008 P/NW BOCES. All Rights Reserved.
http ://www. p/nwboces. org
CONFIDENTIALITY NOTICE
This email if only for the person(s) named in the message header. Unless otherwise
indicated, it contains information that is confidential, priviledged or exempt from
disclosure under applicable law. If you have received it in error, please notify the sender of
the error and delete the message. Thank you.

http://mail.aol.com/38602-516/aol-6/en-us/mail/PrintMessage.asox

7/3/2014

Appendix L

Application for Position of Assistant Principal at Copper Beech Middle .. .https://mail.aol.
com/webmail-std/en-us/PrintMessage

From: Annette Shands ,ashands@aol.com.

To: tcosgrove ,tcosgrove@lakelandschools.org.

Subject: Application for Position of Assistant Principal at Copper Beech Middle School

Date: Tue. May 20, 2014 8:37 pm

Attachments:

VTTA.doc (57K). Copper_Beech.docx (17K)

Dear Dr. Cosgrove,
I write to urge you to consider my application for the position of Assistant Principal
at Copper Beech Middle School. Even if your cut-off date was prior to the posted date of
May 23, 2014, please know that I submitted by resume to your office on Friday, May 16,
2014. Consequently, I request that my application be accepted as timely.
Please find both a resume and a cover letter attached for your consideration. Please
know that I also applied on the online application system (OLAS)
Let me thank you for your acquiescence in this matter.

Annette Oliver Shands
Appendix L

Appendix M

THE UNIVERSITY OF THE STATE OF NEW YORK

This certificate, valid for service in the public schools, is granted to the person named
below who has satisfied the requirements prescribed by the State Education Department.

The State Education Department
Public School Teacher Certificate

ANNETTE R. OLIVER
27 WINTHROP DRIVE
CORTLANDT MANOR, NY 10567

Certification area: SCHOOL DISTRICT ADMINISTRATOR

*Form: PERMANENT

Certificate number:

Effective date: 02/01/95

Control number 603054951
Appendix M

Given under the authority of the State Education Department
“sT Thomas Sobel
Commissioner of Education

over

THE UNIVERSITY OF THE STATE OF NEW YORK
The State Education Department
PERMANENT

CERTIFICATE

This certificate, valid for service in the public schools, is granted to the person named
below who has satisfied the minimum requirements prescribed by the State Education
Department.

Name:

ANNETTE ROSYLIN OLIVER

Certification Area ENGLISH (7-12)

Effective Date: February 1,1969

Certification Number:

THE UNIVERSITY OF THE STATE OF NEW YORK

In witness whereof, the Education Department under its
seal of Albany, New York, grants this certificate.

“sr Vincent C. Gauzzetta
Director, Division of Teacher Education Certification

“sr Eunice B. Nyquist
Commissioner of Education

Appendix N

THE PRESIDENT, PROFESSORS and TRUSTEES of
NEW YORK UNIVERSITY

To all persons to whom this writing may come greeting:
Be it known that we in recognition of the successful;
completion of the requisite course of study in our
School of Education, Health, Nursing and Arts Professions
by virtue of authority granted in the character of the State of New York
do confer upon
ANNETTE OLIVER SHANDS
the degree of
Doctor of Philosophy
WITH ALL THE RIGHTS, PRIVILEGES AND IMMUNITIES THEREUNTO
APPERTAINING
IN WITNESS WHEREOF, WE HAVE CAUSED THIS DIPLOMA TO BE SIGNED BY
THE
DULY AUTHORIZED OFFICERS OF THE UNIVERSITY AND SEALED WITH OUR
CORPORATE SEAL
IN THE CITY OF NEW YORK
FEBRUARY, NINETEEN HUNDRED AND SEVENTY-NINE

Appendix N

NEW YORK UNIVERSITY 1829
PERSTARE (TO PERSERVERE)
ET (AND)
PRAESTARE (TO EXCEL)
s/ John C. Sawhill, President
s/ S. Andrew Schaffer, Secretary
s/ Daniel E. Griffiths, Dean

THE TRUSTEES OF COLUMBIA UNIVERSITIY
IN THE CITY OF NEW YORK
TO ALL PERSONS TO WHOM THESE PRESENTS MAY COME GREETING:
BE IT KNOWN THAT
ANNETTE ROSYLIN OLIVER
HAVING COMPLETED THE STUDIES AND SATISFIED THE REQUIREMENTS
FOR THE DEGREE OF
MASTER OF ARTS
HAS ACCORDINGLY BEEN ADMITTED TO THAT DEGREE WITH ALL THE
RIGHTS,PRIVILEGES AND IMMUNITIES THERETO APPERTAINING
IN WITNESS WHEREOF WE HAVE CAUSED THIS DIPLOMA TO BE SIGNED
BY THE PRESIDENT OF THE UNIVERSITY AND BY

THE PRESIDENT OF TEACHERS COLLEGE AND
OUR CORPORATE SEAL TO BE HERETO AFFIXED
IN THE CITY OF NEW YORK
ON THE SEVENTEENTH DAY OF DECEMBER IN THE YEAR OF
OUR LORD ONE THOUSAND NINE HUNDRED AND SIXTY-NINE
s/ John H. Fischer
President of Teachers College
s/Andrew W. Cordier
President of Columbia University

SICILLVM COLLEGII COLVMBIA NOVI EBORACI
(The Seal of the College of Columbia of New York)
LVMINETVO VIDEBIMVS LVMEN.
(In your light we see light.)

DREW UNIVERSITY
Upon the recommendation of the faculty and on authority of the
Board of Trustees
hereby confers upon
Annette Oliver
the degree

Master of Divinity
Cum Laude
with all the rights and privileges thereunto appertaining.
In Witness whereof, we have affixed our signatures
and the seal of the University
May 20,2000

s/ Thomas H. Kean

s/ Lewis Andrews

President of the University
s/ Maxine C. Beach

Chair of the Board of Trustees
s/ Eugene Myers

Dean of the Theological School Secretary of the Board of
Trustees

DREW UNIVERSITY INCORPORATED 1858

Appendix O

REVISED STATEMENT OF RELIEF AND PRIVILEGE LOG
Pay as Building Supervisor of $179,000 per annum
Pay as $179,000 from 2014 until 2026 = $2,148,000
Plus differential of $20,000 for first thirty credits beyond required credits $ 199,000
Plus differential of $20,000 for another thirty credits beyond required credits
$219,000
Yearly pay of $219,000 from 2014 until 2026 = $2,628,000
$219,000

2014-2015

Plus yearly pay increment of 1.6% effective July 1, 2015
2015 - 2016

$3,504 + $219,000 =$222,504

2016-2017

$3,560 + $222,504 = $226,064

Plus yearly pay increment of 1.7% effective July 1, 2017

2017 - 2018

$3,843 + $226,064 = $229,907

2018 - 2019

$3,908 + $229,907 = $233,805

2019 - 2020

$3,974 + $233,805 = $237,779

2020 - 2021

$4,042 + $237,779 = $241,821

2021 - 2022

$4,110 + $241,821 = $245,931

2022 - 2023

$4,180 + $245,931 = $250,111

2023 - 2024

$4,251 + $250,111 = $254,362

2024 - 2025

$4,324 + $254,362 = $258,686

2025 - 2026

$4,397 + $258,686 = $263,083

Plus Yearly Increments Totaling.

$ 52,668
Appendix O

VACATION PAY
Yearly Pay + Number of School Days (182) = Per Diem Pay x Number of Vacation
Days (22)
2014-2015

$219,000 + 182

= Per Diem Pay of.
2015 - 2016

$222,504 +182

= per Diem Pay of
2016 - 2017

$1351 x 22 = $$29,727

$250,111 + 182

= Per Diem Pay of.
2023 - 2024

$1328 x 22 = $29,231

$245,931 + 182

= Per Diem Pay of
2022 - 2023

$1306 x 22 = $28,742

$241,821 + 182

= Per Diem Pay of.
2021 - 2022

$1284 x 22 = $28,262

$237,779 + 182

= Per Diem Pay of
2020 - 2021

$1263 x 22 = $27,790

$233,805 + 182

= Per Diem Pay of.
2019 - 2020

$1242 x 22 = $27,324

$229,907 + 182

= Per Diem Pay of.
2018 - 2019

$1222 x 22 = $26,884

$226,064 + 182

= Per Diem Pay of
2017 - 2018

$1203 x 22 = $26,466

$1374 x 22 = $30,233

$254,362 + 182

= Per Diem Pay of.

$1397 x 22 = $30,747

9

2024 - 2025

$258,686 + 182

= Per Diem Pay of.
2025 - 2026

$1421 x 22 = $31,269

$263,083 + 182

= Per Diem Pay of

$1445 x 22 = $31,801

Totaling.

$348,676

Plus $12.060. pay for two hundred and one (201) accumulated sick days at 60.00_per day.

Plus dollar amount of $47,732.05 contributed to pension/retirement each year from 2014 2026 totaling $572.784.60

Plus accumulated health and dental benefits of $66.000

Plus Longevity pay $1.400 for ten years of service

Plus dollar amount of yearly Contribution to Social Security and Medicare

Formula

6.2% + 1.45% + 7.65% of maximum taxable amount of yearly income

7.65% x $219,000 = $16,753.50

2014

7.65% x $222,504 = $17,021.55

2015

7.65% x $226,064 = $17,293.89

2016

7.65% x $229,907 = $17,587.88

2017

(•

7.65% x $233,805 = $17,886.08

2018

7.65% x $237,779 = $18,190.09

2019

7.65% x $241,821 = $18,499.30

2020

7.65% x $245,931 = $18,813.72

2021

7.65% x $250,111 = $19,133.49

2022

7.65% x $254,362 = $19,458.69

2023

7.65% x $258,686 = $19,789.47

2024

7.65% x $263,083 =$20,125.84

2025

Plus Social Security and Medicare Benefits Totaling,

C. Pursuant to Rule 26 (1) (A) (iii):
1. Compensatory and equitable damages for loss income
from 2014 — 2026. to include pay as Building Supervisor,
plus pay differential for sixty plus credits beyond required
amount, plus yearly increments from 2015 — 2026,
plus vacation pay, plus accumulated sick pay, plus yearly
pension/retirement contributions, plus health and dental
benefits, plus longevity pay, plus amounts paid into Social
Security and Medicare in the amount of $4.152.142.10
(four million, one hundred fiftv-two thousand, one
hundred forty-two dollars and ten cents).
a.

Pay from 2014 - 2026, $ 2.628.000 comprised of
initial base pay of $179,000.00 with differential of

220,553.50

$40.000 for sixty (60) plus credits beyond the
required amount for failure to hire.
b.

Plus $52.668.00 from 2015 - 2026, for failure to
promote

c.

Plus $348.676 for 264 paid vacation days
V' •

d.

Plus $12.060 earned fromsick pay from 2014 - 2026

e.

Plus dollar amount of $47,732.05 contributed to
pension/retirement each year from 2014-2026 totaling
$572.784.60

f.

Plus $66.000 earned from health and dental benefits
from 2014 - 2026

g.

Plus Longevity Pay in the amount of $1.400

h.

Plus dollar amount contributed to Social Security
from 2014 to 2026 totaling $220.553.50

2. Punitive damages claimed $250.000
3. No damages claimed for mental anguish, distress,
psychological and emotional pain and suffering

Submitted by “s/” Annette Shands
Annette Shands
27 Winthrop Drive
Cortlandt Manor, New York 10567
Telephone: (914) 528-3748

Date: July 28, 2017

